i
TABLE OF CONTENTS
A. Opinion of the Washington State Supreme Court,
filed July 11, 2019
B. Order of the Washington State Court of Appeals,
Division One, certifying case to the State
Supreme Court, signed December 17, 2018
C. Ruling of the Commissioner of the Washington
State Supreme Court, accepting certification,
signed December 19, 2018
D. Order of the Washington State Superior Court
for King County, granting Defendant City of
Seattle’s Motion to Dismiss, filed November 3,
2017
E. Order of the Washington State Superior Court
for King County, denying Plaintiffs’ Motion for
Reconsideration, filed November 15, 2017
F. Mandate of the Washington State Supreme
Court, issued August 9, 2019
G. Seattle Municipal Code, Title 2, Subchapter VIII
(June 12, 2017)
H. Text of City of Seattle Initiative 122, enacted
November 24, 2015
I.

Complaint for Declaratory Judgment and
Injunctive Relief, filed in Washington State
Superior Court for King County, June 28, 2017

Appendix A-1
FILE
In Clerks Office
Supreme Court of Washington
Date JUL 11 2019
s/ FAIRHURST, CJ

IN THE SUPREME COURT OF THE
STATE OF WASHINGTON
MARK ELSTER and
SARAH PYNCHON,
Appellants,
v.
THE CITY OF SEATTLE,
Respondent.

)
)
NO. 96660-5
)
)
En Banc
)
)
) Filed JUL 11 2019

GONZALEZ, J.–Seattle voters approved the
“Democracy Voucher Program,” intending to increase
civic engagement. Under this program, the city
provides vouchers to registered municipal voters and
qualifying residents. Recipients can give their
vouchers to qualified municipal candidates, who then
may redeem them for campaign purposes. The city
funds the program from property taxes. Mark Elster
and Sarah Pynchon sued in King County Superior
Court, arguing the taxes funding the program burden
First Amendment rights and unconstitutionally
compel speech. U.S. Const. amend. I. The superior
court dismissed the suit. Because the program does
not violate the First Amendment, we affirm.

Appendix A-2
FACTS
In 2015, Seattle voters approved Initiative 122,
establishing the Democracy Voucher Program.
According to the initiative, the program’s purposes are
(1) to “expand the pool of candidates for city offices
and to safeguard the people’s control of the elections
process,” (2) to “ensure the people of Seattle have
equal opportunity to participate in political
campaigns and be heard by candidates,” and (3) to
“prevent corruption.” Clerk’s Papers at 14, 16.
The Democracy Voucher Program attempts to
further these goals by providing vouchers to eligible
municipal residents for use in city elections. 1 Voter
registration in Seattle makes one automatically
eligible to receive vouchers; municipal residents who
can donate to a political campaign under federal law
can also receive vouchers. A voter-approved, 10-year
property tax funds the program, collecting in 2016
“approximately $0.0194/$1000 assessed value” in
additional property taxes. Id. at 57. The voucher
recipients can give their vouchers to qualified
municipal candidates. Elster and Pynchon own
property in Seattle. They brought a 42 U.S.C § 1983
action challenging the constitutionality of the
Democracy Voucher Program, arguing it is
unconstitutional to use tax dollars to underwrite
campaign contributions.

To be eligible to receive vouchers from municipal
residents, municipal candidates must obtain a
required number of signatures and contributions from
qualified municipal residents.
1

Appendix A-3
Instead of answering Elster and Pynchon’s
complaint, the city moved to dismiss. The superior
court granted the city’s motion, upholding the
Democracy Voucher Program. It found that the city
“articulated a reasonable justification” for the
program that was consistent with United States
Supreme Court precedent: “an increase in voter
participation in the electoral process.” Id. at 115.
Elster and Pynchon appealed, and the Court of
Appeals certified the case to us.
STANDARD OF SCRUTINY
Elster and Pynchon challenge the city’s use of tax
revenue to fund political speech. “[T]he central
purpose of the [First Amendment is] to assure a
society in which ‘uninhibited, robust, and wide-open’
public debate concerning matters of public interest
would thrive, for only in such a society can a healthy
representative democracy flourish.” Buckley v. Valeo,
424 U.S. 1, 93 n.127, 96 S. Ct. 612, 46 L. Ed. 2d 659
(1976) (quoting N. Y. Times Co. v. Sullivan, 376 U.S.
254, 270, 84 S. Ct. 710, 11 L. Ed. 2d 686 (1964)).
If the Democracy Voucher Program does not
burden fundamental rights, the program enjoys the
presumption of constitutionality and the challengers
bear the heavy burden of showing the city lacked the
power to impose the tax under rational basis scrutiny.
See Forbes v. City of Seattle, 113 Wn.2d 929, 941, 785
P.2d 431 (1990) (upholding theater ticket admission
tax against First Amendment and equal protection
challenges (citing Fin. Pac. Leasing, Inc. v. City of
Tacoma, 113 Wn.2d 143, 147, 776 P.2d 136 (1989))).
The power to tax is a fundamental, necessary
sovereign power of government. Love v. King County,
181 Wash. 462, 467, 44 P.2d 175 (1935). “The

Appendix A-4
government, as a general rule, may support valid
programs and policies by taxes or other exactions
binding on protesting parties.” Bd. of Regents v.
Southworth, 529 U.S. 217, 229, 120 S. Ct. 1346, 146 L.
Ed. 2d 193 (2000). If rational basis scrutiny applies,
the program’s tax need only rationally relate to a
legitimate government interest. See Dot Foods, Inc. v.
Dep’t of Revenue, 185 Wn.2d 239,249, 372 P.3d 747
(2016).
Elster and Pynchon ask us to apply strict scrutiny,
alleging the Democracy Voucher Program burdens
fundamental rights. If the program burdens
fundamental rights, strict scrutiny applies; to survive
strict scrutiny, the city needs to show the program
furthers a compelling interest and is narrowly
tailored to achieve that interest. Citizens United v.
Fed. Election Comm’n, 558 U.S. 310, 340, 130 S. Ct.
876, 175 L. Ed. 2d 753 (2010) (“Premised on mistrust
of governmental power, the First Amendment stands
against attempts to disfavor certain subjects or
viewpoints.”); see also Rosenberger v. Rector & Visitors
of Univ. of Va., 515 U.S. 819, 829, 115 S. Ct. 2510, 132
L. Ed. 2d 700 (1995) (viewpoint neutrality requires
the government to “abstain from regulating speech
when the specific motivating ideology or the opinion
or perspective of the speaker is the rationale for the
restriction”). As will be discussed below in the context
of Elster and Pynchon’s substantive arguments,
heightened scrutiny does not apply. Accordingly, we
apply rational basis review.
ANALYSIS
Elster and Pynchon assert the Democracy Voucher
Program, through its tax, unconstitutionally compels
them to support the program’s message. Neither this

Appendix A-5
court nor the United States Supreme Court has
squarely addressed the issue before us: whether a tax
used to fund a public financing system violates First
Amendment rights. Elster and Pynchon do not assert
a violation of the state constitution. Most related cases
have addressed challenges to the public financing
systems themselves, not the potential injury to the
taxpayers funding those systems. See, e.g., Buckley,
424 U.S. at 92-93; Ariz. Free Enter. Club’s Freedom
Club PAC v. Bennett, 564 U.S. 721, 755, 131 S. Ct.
2806, 180 L. Ed. 2d 664 (2011).
In Buckley, the Court upheld the public financing
of elections, in the context of a system where
taxpayers elect to authorize payment from their taxes
to the Presidential Election Campaign Fund. The
Court held public financing of elections “is a
congressional effort, not to abridge, restrict, or censor
speech, but rather to use public money to facilitate
and enlarge public discussion and participation in the
electoral process, goals vital to a self-governing
people.” 424 U.S. at 92-93. The Court concluded that
the public financing system was constitutional despite
the fact it amounted to the disbursement of tax
revenue to political parties; the Court found that
“every appropriation made by Congress uses public
money in a manner to which some taxpayers object.”
Id. at 92.
Public financing schemes must not burden
freedom of speech and they are presumptively
unconstitutional if they do. For example, in Bennett,
the Court declared unconstitutional an Arizona
system that provided matching funds to publicly
financed candidates, if those candidates agreed to
certain campaign restrictions, after their opponents

Appendix A-6
privately raised or spent funds beyond a threshold
amount. 564 U.S. at 747. The Arizona system
operated in a way that burdened the speech of both
privately
financed
candidates
and
groups
independently advocating for those candidates. The
matching funds penalized privately financed
candidates who “‘robustly’” exercised their First
Amendment rights, by providing funds to their
political rivals. Id. at 736 (quoting Davis v. Fed.
Election Comm’n, 554 U.S. 724, 739, 128 S. Ct. 2759,
171 L. Ed. 2d 737 (2008)). The Court found the
matching funds “particularly burdensome” on
independent groups because their choices were to
“trigger matching funds, change your message, or do
not speak.” Id. at 739. The Court distinguished its
holding in Buckley—that public financing systems are
constitutional—from cases in which the speech of
some is increased “at the expense of impermissibly
burdening (and thus reducing) the speech” of others.
Id. at 741.
Elster and Pynchon argue the Democracy Voucher
Program is not viewpoint neutral because the
vouchers will be distributed among qualified
municipal candidates unevenly and according to
majoritarian preferences. “The whole theory of
viewpoint neutrality is that minority views are
treated with the same respect as are majority views.”
Southworth, 529 U.S. at 235. Here, the decision of who
receives vouchers is left to the individual municipal
resident and is not dictated by the city or subject to
referendum. Elster and Pynchon do not dispute that
the city imposes neutral criteria on who can receive
vouchers and who can redeem them, making the
program’s administration viewpoint neutral. That
some candidates will receive more vouchers reflects

Appendix A-7
the inherently majoritarian nature of democracy and
elections, not the city’s intent to subvert minority
views.
The tax at issue here does not alter, abridge,
restrict, censor, or burden speech. On the contrary,
the Democracy Voucher Program “facilitate[s] and
enlarge[s] public discussion and participation in the
electoral process.” Buckley, 424 U.S. at 92-93. The
program resembles other content neutral ways the
government facilitates political speech, for example,
when the government distributes voters’ pamphlets.
See, e.g., RCW 29A.32.010 (concerning distribution of
voters’ pamphlets for the general election); see also
Laws of 2013, chs. 143, 195 (ensuring contested
judicial races and other nonpartisan races are not
decided at the primary). 2 Thus, wholly distinct from
The lack of a primary voter’s pamphlet for statewide
races in most counties was one of the concerns that
drove the legislature to move these races to the
general election. See S.B. REP. ON H.B. 1474, at 2,
63d Leg., Reg. Sess. (Wash. 2013).
Another recent example of governmental facilitation
of political speech is when the State allocated funds
for prepaid postage election expenses. Letter from Jay
Inslee, Governor of Washington State, to Kim
Wyman, Washington Secretary of State (May 14,
2018), http://www.governor.wa.gov/sites/ default/files/
SOS %20Efund%20letter%20for%20elections.pdf
[https://perma.cc/A2P5-TDPU]; cf Burdick v. Takushi,
504 U.S. 428, 438, 112 S. Ct. 2059, 119 L. Ed. 2d 245
(1992) (the Court has “repeatedly upheld reasonable,
politically neutral regulations that have the effect of
channeling expressive activity at the polls” (citing
2

Appendix A-8
cases involving unconstitutional campaign finance
laws and laws that discriminate based on content or
viewpoint, the program does not burden freedom of
speech, and strict scrutiny does not apply. 3
Elster and Pynchon argue Janus v. American
Federation of State, County & Municipal Employees,
Council 31, __U.S.__, 138 S. Ct. 2448, 201 L. Ed. 2d
924 (2018), renders the Democracy Voucher Program
unconstitutional because they disagree with the
program’s message. In Janus, the Court held that the
funding of the collective bargaining process through
an agency fee of nonmember public sector employees
“seriously impinges on First Amendment rights.” Id.
at 2464. The collective bargaining process compelled
the nonmembers to “provide financial support for a
union” that adopts powerful political positions the
nonmembers oppose. Id.; see also United States v.
United Foods, 533 U.S. 405, 415-16, 121 S. Ct. 2334,
150 L. Ed. 2d 438 (2001) (finding unconstitutional an
assessment on mushroom handlers that funds the
promotion of mushroom advertisements created by a
council of industry representatives).
Janus involved an agency fee that directly
subsidized the union’s collective bargaining activities,
Munro v. Socialist Workers Party, 479 U.S. 189, 199,
107 S. Ct. 533, 93 L. Ed. 2d 499 (1986))).
We disagree with Elster and Pynchon’s contention in
the alternative that Buckley requires heightened
scrutiny under these facts. Compare 424 U.S. at 17-84
(applying heightened scrutiny to various campaign
restrictions), with id. at 92-93 (not applying
heightened scrutiny to the public financing scheme).
3

Appendix A-9
which burdened ‘“associational freedoms.’” 138 S. Ct.
at 2466, 2468 (quoting Harris v. Quinn, 573 U.S. 616,
649, 134 S. Ct. 2618, 189 L. Ed. 2d 620 (2014)). Unlike
the employees in Janus, Elster and Pynchon cannot
show the tax individually associated them with any
message conveyed by the Democracy Voucher
Program. 4 Without such a showing, Janus has no
bearing on this case and the program is not subject to
heightened scrutiny. See PruneYard Shopping Ctr. v.
Robins, 447 U.S. 74, 87, 100 S. Ct. 2035, 64 L. Ed. 2d
741 (1980) (noting the First Amendment was not
violated where “views expressed by members of the
public ... will not likely be identified with those of the
owner”); accord Southworth, 529 U.S. at 233
(university’s viewpoint neutral funding of student
groups ensured student groups’ activities did not
burden objecting students’ associational freedoms).
The Democracy Voucher Program’s purpose is to,
among other things, “giv[e] more people an
opportunity to have their voices heard in democracy.”
Seattle Municipal Code 2.04.600. The government has
a legitimate interest in its public financing of
elections, as Buckley held. See 424 U.S. at 92-93. The
program’s tax directly supports this interest. The
program, therefore, survives rational basis scrutiny.

The Democracy Voucher Program funds the speech
of municipal residents and candidates. It does not
fund government speech. See Johanns v. Livestock
Mktg. Ass’n, 544 U.S. 550, 559, 125 S. Ct. 2055, 161 L.
Ed. 2d 896 (2005).
4

Appendix A-10
CONCLUSION
The Democracy Voucher Program does not alter,
abridge, restrict, censor, or burden speech. Nor does it
force association between taxpayers and any message
conveyed by the program. Thus, the program does not
violate First Amendment rights. We affirm.
s/ GONZALEZ, J.
WE CONCUR:
s/ FAIRHURST, CJ.

s/ STEPHENS, J.

s/ JOHNSON, J.

s/ WIGGINS, J.

s/ MADSEN, J.

s/ GORDON-McCLOUD, J.

s/ OWENS, J.

s/ YU, J.

Appendix B-1

IN THE COURT OF APPEALS OF THE
STATE OF WASHINGTON
DIVISION ONE
MARK ELSTER and
SARAH PYNCHON,
Appellants,
v.
THE CITY OF SEATTLE, a
Washington municipal
corporation,
Respondent.

) No. 77880-3-I
)
)
)
) ORDER OF
) CERTIFICATION
)
)

A panel of the court has considered this matter
pursuant to RCW 2.06.030 and has determined that it
presents a fundamental and urgent issue of broad
public import requiring prompt and ultimate
determination, including whether the City of Seattle
campaign voucher program implicates constitutional
guarantees of free speech. The matter shall
accordingly be certified to the Supreme Court of the
State of Washington for such disposition as it deems
appropriate.
Now, therefore, it is hereby
ORDERED that the case is certified to the
Supreme Court for such determination as that court
deems appropriate
Done this 17th day of December, 2018.
FOR THE PANEL:
s/ Verellen, J.

Appendix C-1

IN THE SUPREME COURT OF THE
STATE OF WASHINGTON
MARK ELSTER and
)
SARAH PYNCHON,
)
Appellants,
)
v.
)
THE CITY OF SEATTLE,)
a Washington municipal )
corporation,
)
Respondent.
)

SUPREME COURT
NO. 96660-5
COURT OF APPEALS
NO. 77880-3-I
RULING ACCEPTING
CERTIFICATION

By order dated December 17, 2018, this matter was
certified to this court by Division One of the Court of
Appeals pursuant to RCW 2.06.030. Having reviewed
the Court of Appeals file, I agree that the case
warrants direct review under the cited statute.
Certification is therefore accepted. Court of Appeals
Cause No. 77880-3-I, in its entirety, is hereby
transferred to this court for determination on the
merits.
s/ Michael E. Johnston
COMMISSIONER
December 19, 2018

Appendix D-1

Hon. Beth Andrus
IN THE SUPERIOR COURT OF THE STATE OF
WASHINGTON FOR KING COUNTY
MARK ELSTER and
SARAH PYNCHON,

No. 17-2-16501-8 SEA

Plaintiffs,

ORDER GRANTING
CITY OF SEATTLE’S
MOTION TO DISMISS

vs.
THE CITY OF
SEATTLE,
Defendant.

Defendant City of Seattle has moved to dismiss
the complaint filed by Plaintiffs Mark Elster and
Sarah Pynchon. After briefing and argument of
counsel, 1 the Court GRANTS the City’s motion to
dismiss based on the analysis set out below.
City of Seattle’s Democracy Voucher Program
On November 3, 2015, the voters in the City of
Seattle passed Initiative I-122, codified as “Honest
Election Seattle,” in Seattle Municipal Code (SMC)
2.04.600 to 2.04.690. The initiative authorized the
funding of a “Democracy Voucher Program” through
See Appendix A for the materials considered by the
Court.
1

Appendix D-2
the imposition of an additional property tax imposed
in years 2016 through 2025. The proceeds of this tax
may be used only to fund the Democracy Voucher
Program.
Under this program, every Seattle registered
voter received four vouchers totaling $100 which the
voter can assign to qualified candidates running for
election to the position of city mayor, city attorney,
and city councilmember. SMC 2.04.620(b) and (e).
Candidates qualify to receive these vouchers
from voters if they agree to participate in at least
three public debates for both the primary and general
elections, and they agree to comply with special
campaign contribution and spending limits. SMC
2.04.630(b). To qualify for the program, candidates
must receive a minimum number of campaign
contributions, ranging from 600 for a mayoral
candidate to 150 for a city attorney candidate, of at
least $10 or more. SMC 2.04.630(c). The campaign
spending limits run from a high of $800,000 total for
a mayoral candidate, to $150,000 total for district city
council candidates and city attorney candidates. SMC
2.04.630(d). If a qualifying candidate demonstrates
that his or her opponent has exceeded these spending
limits, the candidate may ask the Seattle Ethics and
Elections Commission (SEEC) to be released from the
program’s contribution and spending limits. SMC
2.04.630(f).
All Seattle residents are entitled to receive
Democracy Vouchers, whether the residents own
property or not. No residents living outside of Seattle
may receive these vouchers even if they own real
estate within the city and are paying property taxes
for the Democracy Voucher Program fund.

Appendix D-3
Plaintiffs’ Complaint
On June 28, 2017, Mark Elster and Sarah
Pynchon filed this lawsuit challenging the
constitutionality of the Democracy Voucher Program.
Mr. Elster who owns a family home in Magnolia, has
been taxed under the program and received but not
used Democracy Vouchers. Complaint, ¶4. Ms.
Pynchon owns property in Seattle and has been taxed
under the program but, because she lives outside the
city limits, is not entitled to receive any Democracy
Vouchers. Complaint, ¶5. Mr. Elster and Ms. Pynchon
contend that the Democracy Voucher Program is a
compelled subsidy of political speech which violates
their First Amendment rights. The City counters that
the program is a constitutionally valid method of
public campaign finance approved by the United
States Supreme Court in Buckley v. Valeo, 424 U.S. 1,
96 S. Ct. 612, 46 L. Ed. 2d 659 (1976).
ANALYSIS
The parties agree that this case presents the
Court with an issue of first impression. Although
there are reported cases affirming and invalidating
various means of publicly funding political
campaigns, none involve the imposition of a tax used
to finance a voucher program in which registered
voters make campaign contributions of their choice to
candidates in certain qualified electoral races.
After reviewing the case law cited by both parties
and considering the arguments of the parties, the
Court finds the City’s position to be the more
persuasive one.

Appendix D-4
Buckley v. Valeo: The Use of Public Money to
Finance Political Campaigns
In 1976, the Supreme Court considered the
constitutionality of the Federal Election Campaign
Act, which placed limits on campaign contributions
and expenditures and created a system of public
financing of presidential election campaigns and
nominating conventions. The Court invalidated the
campaign spending provisions but affirmed the public
financing provision of the act, known as Subtitle H.
Subtitle H created a Presidential Election
Campaign Fund financed from general tax revenues.
Taxpayers may check a box on their tax returns
authorizing the diversion of taxes to a fund for
distribution to presidential candidates for nominating
conventions and primary and general election
campaigns. 424 U.S. at 86-87. The amount of money
each campaign was entitled to receive depended on
whether the candidate belonged to a major or minor
political party. Id.
The challengers contended that Subtitle H
constituted government support of political speech in
violation of the First Amendment. The Supreme Court
rejected this argument and concluded that the
program was intended “not to abridge, restrict, or
censor speech, but rather to use public money to
facilitate and enlarge public discussion and
participation in the electoral process, goals vital to a
self-governing people.” Id. at 92-93 (emphasis added).
Buckley v. Valeo public financing of political
candidates, in and of itself, does not violate the First
Amendment, even though the funding may be used to
further speech to which the contributor objects.” May
v. McNally, 203 Ariz. 425, 428, 55 P.3d 768 (2002).

Appendix D-5
Public Funding of Political Campaigns PostBuckley
Since Buckley v. Valeo, several states have
passed laws publicly funding political campaigns.
Some have survived constitutional challenge. See
Libertarian Party of Ind. v. Packard, 741 F.2d 981
(7th Cir. 1984) (imposing sales tax on personalized
license plates to publicly fund campaigns); Bang v.
Chase, 442 F. Supp. 758 (D. Minn. 1977) (allowing
income tax filer to allocate taxes to state election
campaign fund for use by specific party); May, 203
Ariz. 425 (imposing 10% surcharge on criminal and
civil traffic fines to publicly fund campaigns).
Some have not. See Vt. Soc’y of Ass’n Execs. v.
Milne, 172 Vt. 375, 779 A.2d 20 (2001) (imposing tax
on lobbyist expenditures to fund public grants to
gubernatorial candidates violated lobbyists’ First
Amendment rights); Butterworth v. Republican Party
of Fla., 604 So. 2d 477 (Fla. 1992) (imposing 1.5%
assessment on donations to state political parties to
finance public campaign funding of qualifying
candidates violated First Amendment).
Plaintiffs contend that the Democracy Voucher
program cannot survive their First Amendment
challenge because the City is compelling them to
subsidize the voucher recipients’ private political
speech. They argue that this program, unlike any
other public campaign finance case, involves a
government entity allowing voters to choose to whom
to donate public funds. They contend that the voucher
feature interferes with the Plaintiffs’ First
Amendment right to support candidates other than
those selected by the voucher holder, or the right to
not support any candidate at all.

Appendix D-6
The Court agrees with Plaintiffs that the City’s
Democracy Voucher program does implicate their
First Amendment rights. In Board of Regents v.
Southworth, 529 U.S. 217, 120 S. Ct. 1346, 146 L. Ed.
2d 193 (2000), the Supreme Court considered a First
Amendment challenge to a mandatory student fee
used to support student organizations engaged in
expressive activities. The plaintiffs claimed that they
should not be compelled to subsidize student
organizations with which they disagreed. Id. at 22224. The Court held that once the university
conditioned the opportunity to obtain an education on
an agreement to support objectionable speech
(through the imposition of a mandatory fee), the First
Amendment was implicated. Id. at 231. By analogy
here, the City is conditioning property owners’ rights
to their land on the payment of a tax used to support
speech property owners may find objectionable. The
First Amendment is implicated.
Viewpoint Neutrality
But the fact that the First Amendment is
implicated does not mean that the program is
unconstitutional. The City asks this Court to adopt
the public forum standard of viewpoint neutrality
when evaluating the Democracy Voucher Program.
Under public forum law, when a government creates
a nonpublic or limited public forum, namely a forum
that is limited to use by certain groups or dedicated
solely to the discussion of certain subjects, speech
restrictions need only be “reasonable and viewpoint
neutral.” Pleasant Grove City v. Summum, 555 U.S.
460, 469-70, 129 S. Ct. 1125, 172 L. Ed. 2d 853 (2009).
In Southworth, the Supreme Court applied this
standard when assessing the constitutionality of

Appendix D-7
mandatory student funding of organizations. 529 U.S.
at 230.
Plaintiffs, however, ask the Court to apply the
“compelled funding of speech” cases. See Knox v. Serv.
Emps. Int’l Union, Local 1000, 567 U.S. 298, 309-10,
132 S. Ct. 2277, 183 L. Ed. 2d 281 (2012); Abood v.
Detroit Bd. of Educ., 431 U.S. 209, 97 S. Ct. 1782, 52
L. Ed. 2d 261 (1977). In Knox, the Supreme Court held
that the compelled funding of the speech of other
private speakers or groups” is unconstitutional unless
(1) there is a comprehensive regulatory scheme
involving a mandated association among those who
are required to pay the subsidy; and (2) the mandatory
fee or tax is a necessary incident of the larger
regulatory purpose which justified the required
association. 567 U.S. at 310 (citing United States v.
United Foods, Inc., 533 U.S. 405, 414, 121 S. Ct. 2334,
150 L. Ed. 2d 438 (2001)). The Southworth Court
acknowledged this line of cases but concluded that
those cases did not apply in the context of
extracurricular student speech at a university. 529
U.S. at 230.
The Court does not find the test used in Knox or
more recently Harris v. Quinn, __ U.S. __, 134 S. Ct.
2618, 189 L. Ed. 2d 620 (2014) to be any more
applicable to the City’s Democracy Voucher Plan than
it was to the University of Wisconsin’s student fee.
The program is not mandating that property owners
associate with each other. Without this mandated
association, it is difficult to see how the test laid out
in the “compelled funding of speech” cases fits a
campaign funding tax.
Plaintiffs next argue that the City’s funding plan
is not viewpoint neutral because it “distribut[es]

Appendix D-8
voucher funds through the majoritarian preferences of
Seattle residents.” Response, p. 21. At oral argument,
counsel clarified this argument: the voucher recipient
is choosing to whom to donate public money, rather
than the City, based on the voter’s viewpoint
preference, making the decision as to which candidate
receives financial support viewpoint-based. They rely
on Amidon v. Student Ass’n of the State University of
New York, 508 F.3d 94 (2d Cir. 2007) in which a
federal court of appeals held that the use of a student
referendum to determine how to allocate student fees
among student organizations was not viewpoint
neutral because the vote reflected the student body’s
majority opinion of the value or popularity of an
organization’s speech. Id. at 101.
This Court does not find Amidon to be
analytically helpful. The City sets eligibility
requirements for Democracy Voucher candidates.
Candidates must demonstrate adequate grassroots
support to qualify for the program by showing they
have received a certain number of donations of $10 or
more. In Buckley, the Supreme Court held that it was
permissible for a government to set eligibility
requirements because “Congress’ interest in not
funding hopeless candidacies with large sums of
public money necessarily justifies the withholding of
public assistance from candidates without sufficient
public support.” 424 U.S. at 96 (citation omitted). The
City does not, however, put eligibility to a popular
vote, as in Amidon. Any voter can assign a $25
voucher to any eligible candidate, even if that
candidate’s viewpoint is unpopular with the majority
of Seattle voters. The City is not distributing voucher
funds “through majoritarian preferences of Seattle
residents.”

Appendix D-9
The City argues that its voucher program should
be deemed viewpoint neutral because the City is not
choosing to whom to allocate campaign funds and is
allowing voters to make a completely private choice,
similar to school voucher programs. In Zelman v.
Simmons-Harris, 536 U.S. 639, 122 S. Ct. 2460, 153
L. Ed. 2d 604 (2002), the Supreme Court held that a
government
school
voucher
program
was
constitutional under the Establishment Clause
because it was “neutral with respect to religion,” and
provided assistance to a broad class of citizens who
directed the aid to a religious school “wholly as a
result of their own genuine and independent private
choice.” Id. at 652. The Court is reluctant to invoke
Establishment Clause precedent here given the
Supreme Court’s admonition in Buckley that any
analogy to Establishment Clause case law is “patently
inapplicable” to the issue presented in that case. 424
U.S. at 92. But the Court can find no other analogous
precedent. This Court concludes that the Democracy
Voucher program is viewpoint neutral because
candidates qualify for voucher support regardless of
the views they espouse, and the City imposes no
restrictions on voters’ choice as to whom they may
assign their vouchers.
The City has articulated a reasonable
justification for the Democracy Voucher Program. It
seeks an increase in voter participation in the
electoral process. This goal was recognized by the
Buckley Court to be “goals vital to a self-governing
people.” Id. at 92-93. The Democracy Voucher
Program is a viewpoint neutral method for achieving
this goal.

Appendix D-10
For the foregoing reasons, the Court GRANTS
the City’s motion to dismiss Plaintiffs’ complaint.
IT IS SO ORDERED this 3rd day of November,
2017.
Electronic Signature attached
Honorable Beth M. Andrus
APPENDIX A
Plaintiffs’ Complaint, Sub. #1
City of Seattle’s Rule 12(b)(6) Motion to Dismiss, Sub.
#17
Amicus Curiae Brief of Washington CAN!, et al, Sub.
#20
Plaintiffs’ Response to Defendant’s Motion to Dismiss,
Sub. #34
Plaintiffs’ Consolidated Response to Amicus Briefs
Filed in Support of City, Sub. #35
City of Seattle’s Reply in Support of Its Rule 12(b)(6)
Motion to Dismiss, Sub. #36

Appendix E-1

Hon. Beth Andrus
IN THE SUPERIOR COURT OF THE STATE OF
WASHINGTON FOR KING COUNTY
MARK ELSTER and
SARAH PYNCHON,

No. 17-2-16501-8 SEA

Plaintiffs,

ORDER DENYING
PLAINTIFFS’
MOTION FOR
RECONSIDERATION
OF ORDER OF
DISMISSAL

vs.
THE CITY OF
SEATTLE,
Defendant.

Pending before the Court is Plaintiffs’ motion for
reconsideration of the Court’s order granting the City
of Seattle’s motion to dismiss. Plaintiffs’ motion for
reconsideration is DENIED.
Dated: November 15, 2017
Electronic signature attached
Honorable Beth M. Andrus
Chief Civil Judge for the
King County Superior Court

Appendix F-1

IN THE SUPREME COURT OF THE
STATE OF WASHINGTON
MARK ELSTER and
)
SARAH PYNCHON,
)
Appellants,
)
v.
)
THE CITY OF SEATTLE,)
Respondent.
)
)

MANDATE
NO. 96660-5
King County No.
17-2-16501-8 SEA

THE STATE OF WASHINGTON TO: The Superior
Court of the State of Washington in and for King
County
The opinion of the Supreme Court of the State of
Washington was filed on May 11, 2019, and became
the decision terminating review of this Court in the
above entitled case on July 31, 2019. This case is
mandated to the superior court from which the
appellate review was taken for further proceedings in
accordance with the attached true copy of the opinion.
IN TESTIMONY WHEREOF, I have
hereunto set my hand and affixed
the seal of this Court at Olympia,
Washington, this
9th
day of
August, 2019.
s/ Susan L. Carlson
SUSAN L. CARLSON
Clerk of the Supreme Court
State of Washington

Appendix G-1
Seattle Municipal Code, Title 2 [June 12, 2017]
Chapter 2.04 Election Campaign Contributions
Subchapter VIII - Honest Elections Seattle
2.04.600 - Purpose and Authority.
(a) Purpose. This people’s initiative measure builds
honest elections in the City of Seattle (“City” or
“Seattle”) and prevents corruption, by: giving more
people an opportunity to have their voices heard in
our democracy; ensuring a fair elections process that
holds our elected leaders accountable to us by
strengthening voters’ control over City government;
banning campaign contributions by City contractors
and entities using paid lobbyists; lowering campaign
contribution limits; tightening prohibitions on
lobbying by former elected officials (the “revolving
door” problem); expanding requirements for
candidates to disclose their financial holdings and
interests; and increasing fines on violators of
campaign rules. This measure also creates a
Democracy Voucher campaign public finance program
(“Democracy Voucher Program” or “Program”) to
expand the pool of candidates for city offices and to
safeguard the people’s control of the elections process
in Seattle.
(b) Authority of the People. The People have vested
legislative powers of the City in a Mayor and City
Council, but reserved to themselves independent of
the Mayor and the City Council the power to propose
for themselves measures dealing with any matter
within the realm of local affairs or municipal business.
That power includes the use of an initiative petition
to submit to the qualified electors of the city a

Appendix G-2
measure as authorized by RCW 84.55.050 to exceed
the limitations of regular property taxes contained in
RCW Chapter 84.55, as it now exists or may
hereinafter be amended. The authority of the people
to adopt this measure is also specifically authorized
and reserved to the electors of the City of Seattle by
RCW 42.17A.550, which allows a city to use locally
derived public funds (whether from taxes, fees,
penalties or other sources) to publicly finance local
political campaigns, if the proposal to do so is
submitted to City of Seattle voters for their adoption
and approval, or rejection.
(Initiative 122, § 1, 2015.)
2.04.601 - No Campaign Contributions from City
Contractors or their PACs.
No Mayor, City Council member or City Attorney or
any candidate for any such position shall knowingly
accept any contribution directly or indirectly from any
entity or person who in the prior two years has earned
or received more than $250,000, under a contractual
relationship with the City. No Mayor, City Council
member or City Attorney or any candidate for any
such position shall knowingly solicit a contribution for
himself or herself or for any political party, political
committee, campaign committee or public office fund,
directly or indirectly from any entity or person who in
the prior two years has earned or received more than
$250,000, under a contractual relationship with the
City. If the first sentence of this section is invalidated
then no Mayor, City Council member or City Attorney
or any candidate for any such position shall knowingly
accept any contribution of more than $250 in one
calendar year, directly or indirectly, from any entity
or person who in the prior two years has earned or

Appendix G-3
received more than $250,000, under a contractual
relationship with the City. If the second sentence of
this section is invalidated then no Mayor, City Council
member or City Attorney or any candidate for any
such position shall knowingly solicit a contribution of
more than $250, for himself or herself or for any
political party, political committee, campaign
committee or public office fund, directly or indirectly
from any entity or person who in the prior two years
has earned or received more than $250,000, under a
contractual relationship with the City. In all cases
such a candidate or office holder may solicit and
accept assignment of Democracy Vouchers without
such solicitation or assignment being considered a
violation of this section. If any part of this section is
held invalid the remainder shall be construed to effect
the anticorruption purposes of this section to the
maximum extent allowable.
(Initiative 122, § 1, 2015.)
2.04.602 - No Campaign Contributions From
Regulated Corporations/Industries that Hire
Lobbyists.
No Mayor, City Council member or City Attorney or
any candidate for any such position shall knowingly
accept any contribution directly or indirectly from any
entity or person who during the past 12 month period
has paid $5,000 or more to a lobbyist or lobbying
entity (as such terms are defined in SMC 2.06.010) for
lobbying the City of Seattle. No Mayor, City Council
member or City Attorney or any candidate for any
such position shall knowingly solicit a contribution,
for himself or herself or for any political party,
political committee, campaign committee or public
office fund, from any entity or person who during the

Appendix G-4
past 12 month period has paid $5,000 or more to a
lobbyist or lobbying entity (as such terms are defined
in SMC 2.06.010) for lobbying the City of Seattle. If
the first sentence of this section is invalidated, then
no Mayor, City Council member or City Attorney or
any candidate for any such position shall knowingly
accept any contribution of more than $250 in any one
calendar year, directly or indirectly from any entity or
person who during the past 12 month period has paid
$5,000 or more to a lobbyist or lobbying entity (as such
terms are defined in SMC 2.06.010) for lobbying the
City of Seattle. If the second sentence of this section is
invalidated, then no Mayor, City Council member or
City Attorney or any candidate for any such position
shall knowingly solicit a contribution of more than
$250, for himself or herself or for any political party,
political committee, campaign committee or public
office fund, from any entity or person who during the
past 12 month period has paid $5,000 or more to a
lobbyist or lobbying entity (as such terms are defined
in SMC 2.06.010) for lobbying the City of Seattle. In
all cases such a candidate or office holder may solicit
and accept assignment of Democracy Vouchers
without such solicitation or assignment being
considered a violation of this section. If any part of
this section is held invalid the remainder shall be
construed to effect the anticorruption purposes of this
section to the maximum extent allowable.
(Initiative 122, § 1, 2015.)
2.04.605 - Expedited Reporting of Electronic
Contributions.
To ensure the Seattle Ethics and Elections
Commission (“SEEC”) creates an electronic reporting
system that increases transparency, does not

Appendix G-5
discriminate against low budget campaigns, and
takes advantage of advances in information
technology, all candidates for City of Seattle electoral
offices shall report to the Seattle City Clerk any
campaign contribution made electronically upon
deposit into a candidate’s account; provided that this
provision shall take effect only after SEEC shall have
determined that there are two or more electronic
payment processing companies that have the capacity
to report contributions to the SEEC as soon as the
contribution is transferred to the candidate’s account.
To give campaigns time to prepare for this section,
SEEC shall establish the effective date of this section
by rule published reasonably in advance of the
election cycle in which campaigns shall comply. SEEC
shall ensure that before a contribution is required to
be publicly disclosed as received by a campaign it shall
have reasonable opportunity to reject or return
undesired or illegal contributions.
(Initiative 122, § 1, 2015.)
2.04.606 - Signature Gatherers Must Disclose if
Paid for Signatures.
Any person or entity that is a compensated or paid
signature gatherer for any City of Seattle ballot
measure, initiative, referendum, or charter
amendment shall disclose to each person from whom
a signature is sought, in writing via a conspicuous,
legible sign, placard, or badge, stating “PAID
SIGNATURE GATHERER.”
(Initiative 122, § 1, 2015.)
2.04.607
Three-year
Ban
on
Mayor,
Councilmember, City Attorney or Top Staff Paid
Lobbying.

Appendix G-6
A former Mayor, City Council member, City Attorney,
or City Department head or the highest paid aide or
employee directly reporting to any of the foregoing,
may not, during the period of three years after leaving
City office or position, participate in paid lobbying as
defined in SMC 2.06.010. If the foregoing sentence is
invalidated, then a former Mayor, City Council
member, City Attorney, or City Department head or
the highest paid aide or employee directly reporting to
any of the foregoing, may not, during the period of two
years after leaving City office or position, participate
in paid lobbying as defined in SMC 2.06.010.
(Initiative 122, § 1, 2015.)
2.04.620 - The Right to $100 in Democracy
Vouchers, For Assignment to Qualified
Candidates.
(a) Democracy Vouchers. Democracy Vouchers are
vital to ensure the people of Seattle have equal
opportunity to participate in political campaigns and
be heard by candidates, to strengthen democracy,
fulfill other purposes of this subchapter and prevent
corruption.
(b) Issuance of Democracy Vouchers. On the first
business day in every municipal election year, SEEC
shall mail to each person who was by the previous
November 15th, duly registered to vote in the City of
Seattle, at his or her address in the voter registration
records, $100 in vouchers (“Democracy Vouchers”)
consisting of four Democracy Vouchers of $25 each,
except that SEEC may deliver Democracy Vouchers
online or in other manners if the person receiving
same elects other manner of delivery as provided in
this subchapter. Thereafter SEEC shall regularly

Appendix G-7
issue $100 in Democracy Vouchers to any person
becoming a duly registered City of Seattle voter after
the previous November 15th, up until October 1st of
the election year. To be consistent with federal law,
any adult natural person who resides more than 30
days in the City of Seattle, and who is a registered
voter, or is eligible to vote under local, state or federal
law, or who is eligible under federal law to donate to
a political campaign, but who has not received any
Democracy Vouchers in the election cycle, may opt in
to the Program and obtain an equivalent number of
Democracy Vouchers by application to SEEC. Any
eligible adult may request Democracy Vouchers be
mailed or emailed to an address other than that
indicated in the voter registration records, or be
delivered at SEEC offices, as soon as SEEC shall have
developed a secure system for such distributions of
Democracy Vouchers, including distribution online, in
person, or to an address not listed in voter registration
records. No resident outside Seattle, no corporation or
other non-human entity, no person under the age of
18 years, and no person ineligible to make political
contributions under federal law, may receive a
Democracy Voucher.
(c) Form of Democracy Vouchers. Each $25 Democracy
Voucher shall state the holder’s name, a unique
voucher identification number, the election year, and
words of assignment with blank spaces for the holder
to designate a candidate and sign the holder’s name,
and may include information SEEC deems helpful for
verifying signatures such as the voter identification
number and barcode, in substantially the following
form:

Appendix G-8
$25
1 of 4
Democracy Voucher for
20xx Election Jane Q. Public
On [insert date] _________ / ________ /
_________ , 20xx, I, Jane Q. Public, a resident
of the City of Seattle, assigned this Democracy
Voucher to a candidate for mayor, city attorney
or city council named _____ .
I attest that I obtained this Democracy
Voucher properly and make this assignment
freely, voluntarily and without duress or in
exchange for any payment of any kind for this
assignment, and not for any consideration of
any kind, and that I am aware that
assignment does not guarantee availability of
funds and is irrevocable. Assignment is
complete upon delivery to Seattle Ethics and
Elections Commission, the named candidate,
or her or his registered representative.
Sale/transfer for consideration of this
Democracy Voucher is strictly prohibited.
Voucher may be redeemed only by qualifying
candidates and only if such candidate has
complied with additional contributions and
spending limits and if funds are available.
Signed: _________ on _________ , 20xx.
Jane Q. Public
voter ID and bar code
Voucher ID #123,456,789
(d) Assignment of Democracy Vouchers. Vouchers are
only transferable or assignable as stated herein. Any
person properly obtaining and holding a Democracy
Voucher may assign it by writing the name of the
assignee candidate, and signing the holder’s name on

Appendix G-9
and dating the Voucher where indicated thereon, and
delivering the signed and dated Voucher to the
candidate, or to SEEC, or to any candidate’s
representative who shall be registered for this
purpose with SEEC. Delivery may be by mail, in
person (by any person the holder requests to deliver
the voucher), or electronically via a secure SEEC
online system. SEEC shall establish a secure online
system for delivery of Democracy Vouchers (without
prejudice to any eligible person’s right to receive
Democracy Vouchers in the mail at his or her option)
no later than prior to the 2017 election cycle, unless
SEEC determines this target date is not practicable;
and in any event no later than the 2019 election cycle.
(e) Limitations on Assignment. A person may only
assign a Voucher to a candidate who has chosen to
participate in the Seattle Democracy Voucher
Program and who has filed a signed statement of
participation and pledge with SEEC as described
below. No Democracy Voucher may be assigned after
the last business day in November following the
election, or to any candidate filing for participation
who then fails to qualify or becomes unqualified for
the position sought or for the Program. A candidate or
registered candidate representative may seek
assignment in person or through representatives or by
assisting a voter to access the SEEC secure online
system. A valid assignment is irrevocable. A person
may assign any number of his or her Democracy
Vouchers to the same candidate in a given year.
Assignment or transfer for cash or any consideration
is prohibited. Offering to purchase, buy or sell a
Democracy Voucher is prohibited. No person may give
or gift a Democracy Voucher to another person, except
by assigning it to a candidate as provided herein.

Appendix G-10
Democracy Vouchers have no cash value and are not
assets, income or property of the holder. A Democracy
Voucher may not be assigned by proxy, power of
attorney or by an agent.
(f) Assignor Assumes Certain Risks. A Democracy
Voucher expires if the holder is no longer resident in
the City of Seattle, or no longer or not eligible to make
political contributions under federal law, if such
circumstances take place prior to the assignment to a
qualified candidate. The holder of a Democracy
Voucher assumes the risk that he or she may change
his or her mind after assignment, or that the
Democracy Voucher may not have use or be redeemed
due to any contingency, including but not limited to
unavailability of Program funds; the assignee
candidate reaching the “Campaign Spending Limit”
(described and defined below); a candidate’s death,
disqualification, dropping out, failure to redeem or use
the Democracy Voucher; a candidate’s not qualifying
or violating the terms of qualification; or otherwise.
(Initiative 122 , § 1, 2015.)
2.04.630 - Candidates to Qualify By Showing
Grass Roots Support and Agreeing to New
Campaign
and
Contribution
Limits;
Redemption of Democracy Vouchers; New
Limits on Use of Funds.
(a) Only Qualified Candidates Redeem Democracy
Vouchers. Only a candidate who has filed with SEEC
for participation in the Seattle Democracy Voucher
Program may receive assignment of a Democracy
Voucher. Only a candidate certified as qualified by
SEEC may redeem a Democracy Voucher. Only a
person eligible for and seeking the office of Mayor,

Appendix G-11
City Attorney or City Council shall be eligible to file
for Program participation.
(b) Requirements for Program. To seek qualification,
the candidate shall file with SEEC, on or after July
1st the year before an election year and within two
weeks after filing a declaration of candidacy, a sworn
statement attesting to his or her intent to participate,
asserting that the candidate shall timely file or has
filed a declaration of candidacy for the office indicated,
and that the candidate shall comply with Program
requirements and applicable campaign laws. Such
Program requirements are that the candidate: shall
take part in at least three public debates for primary
and general elections each (as defined by SEEC, and
SEEC may waive or reduce the number of debates, if
a qualifying candidate makes all reasonable efforts to
participate in debates and similar public events); shall
comply with campaign laws and spending and
contribution limits; and, the candidate shall not
knowingly solicit money for or on behalf of any
political action committee, political party, or any
organization that will make an independent
expenditure for or against any City of Seattle
candidate within the same election cycle (for the
purposes of this section, appearing as a featured
speaker at a fundraising event for a committee or
entity shall constitute soliciting money for such
committee or entity). Further Program requirements
are that a candidate for Mayor shall not solicit or
accept total contributions from any individual or
entity in excess of a total of $500 during one election
cycle, and a candidate for City Attorney or City
Council shall not solicit or accept total contributions
from any individual or entity in excess of a total of
$250 during one election cycle (including any

Appendix G-12
contribution used to qualify for Democracy Vouchers,
but excluding the value of Democracy Vouchers
assigned to such candidate) (subject to exceptions
provided herein).
(c) Qualifying Contributions. To qualify for the
Democracy Voucher Program, candidates shall show
they have received at least the following numbers of
“Qualifying Contributions” of at least $10 but not
more than the Program contribution limit for the
office sought provided in SMC 2.04.630(b) from
individual adults (18 years of age or older), who are
human natural persons residing in the City of Seattle,
and eligible under federal law to make political
contributions: Mayoral candidates, at least 600; City
Attorney candidates, at least 150; at-large City
Council candidates, at least 400; and district City
Council candidates, at least 150 (of which at least 75
shall be from individuals residing in the district
sought to be represented by the candidate). SEEC
shall maintain a list of qualified candidates and make
it readily accessible to the public, including by
publishing it on SEEC’s website.
(d) Campaign Spending Limit. Participating
candidates shall comply with all campaign laws and
not exceed the following “Campaign Spending Limits”
(defined as (i) money spent to date (equal to prior
expenditures, plus debts and obligations), and the
value of any in kind donations reported, plus (ii) cash
on hand and (iii) the value of unredeemed Vouchers
on hand which the candidate shall have allocated to
the primary or general election): Mayor $400,000 for
the primary election, and $800,000 total (for both
primary and general election); City Attorney, $75,000
for the primary election, and $150,000 total; at-large

Appendix G-13
City Council, $150,000 for the primary election, and
$300,000 total; district City Council, $75,000 for the
primary election and $150,000 total.
(e) Further Limits on Redemption. A qualified
candidate may collect Democracy Vouchers for the
general election before the primary election takes
place and allocate same to the general election
without such Vouchers counting against the
Campaign Spending Limit for the primary election,
but may not redeem Vouchers for the general election
unless such candidate advances to the general
election.
(f) Remedies for Exceeding Campaign Spending Limit.
If a qualified candidate demonstrates to SEEC that he
or she has an opponent (whether or not participating
in the Program) whose campaign spending has
exceeded the Campaign Spending Limit for the
position sought as indicated above, where SEEC
deems the excess material it shall allow such
candidate to choose to be released from the Campaign
Spending Limit and campaign contribution limits for
the Program, in which case SEEC shall allow such
candidate to redeem his or her Democracy Vouchers
received theretofore or thereafter up to the amount of
the Campaign Spending Limit only, then allow such
candidate to engage in campaign fundraising without
regard to any Program requirements. SEEC shall also
release a qualifying candidate from the Campaign
Spending Limit to the extent that it is shown (on
application of a Seattle candidate or citizen) that said
qualified candidate faces independent expenditures
as defined in SMC 2.04.010 adverse to the candidate
or in favor of an opponent and the sum of such
independent expenditures plus said candidate’s

Appendix G-14
opponent’s campaign spending materially exceeds the
Campaign Spending Limit for that office.
(g) Loss of Qualification. A candidate loses
qualification for the Program by publicly announcing
withdrawal, abandoning the race, failing to advance
to the general election, or if SEEC finds sufficient
material violations of election laws or Program
requirements such as violation of spending or
contribution limits, or fraudulent or attempted
fraudulent assignment of Democracy Vouchers.
(h) Redemption of Vouchers. SEEC shall redeem
Democracy Vouchers only after verifying the
assignment by ensuring the Voucher was issued to an
eligible person, and verifying the signature written in
the words of assignment, and only if redemption shall
not put the candidate over the Campaign Spending
Limit and only if Program funds are available. To
verify signatures SEEC may employ the division of
King County Records and Elections which verifies
signatures for initiative petitions or mail-in ballots.
SEEC shall redeem Democracy Vouchers on
published regular redemption dates that shall be no
less frequent than twice a month and may redeem
Vouchers on other dates notified in advance if SEEC
deems it practicable. SEEC shall not redeem any
Democracy Voucher received by SEEC after the first
business day in the month of December after the
general election.
(i) Limits on Use of Voucher Proceeds. Candidates
shall use Democracy Voucher proceeds only for
campaign costs or debts for the relevant office and
election cycle, and may not use such proceeds after a
reasonable period (to be set by SEEC) following the
election to pay campaign debts. Candidates shall not

Appendix G-15
use Democracy Voucher proceeds for any cash
payments or in violation of any law; nor to pay the
candidate (except to repay or reimburse a loan to his
or her political committee or campaign in an amount
not greater than that provided in RCW 42.17A.445(3)
or WAC 390-05-400) or pay a member of the
candidate’s immediate family as defined in RCW
4.16.030; pay any entity in which the candidate or an
immediate family member holds a ten percent or
greater ownership interest; pay any amount over fair
market value for any services, goods, facilities or
things of value; pay any penalty or fine; or pay any
inaugural costs or office funds cost.
(j) Return of Democracy Voucher Proceeds. A
candidate who has redeemed a Democracy Voucher,
then withdraws, dies, becomes ineligible, loses
qualification, or is eliminated in any primary or
general election or wins a general election, shall
within a reasonable period, as defined by SEEC, pay
all debts and obligations, account to SEEC and restore
to SEEC and the Program “Unspent Democracy
Voucher Proceeds.” SEEC shall define “Unspent
Democracy Voucher Proceeds” by rule.
(Initiative 122 , § 1, 2015.)
2.04.658 - Transparency.
Assigning a Democracy Voucher is a public act and
recipients of Democracy Vouchers shall expect same
to be public and made public and shall have no
expectation of privacy in registering to obtain
Democracy Vouchers or in assigning same. All
Democracy Voucher holders are on notice the process
is public and transparent, except that SEEC shall not
publish mail, email or other addresses to which

Appendix G-16
Democracy Vouchers are sent. SEEC shall make
transparent at its offices and on its website all
assignments and redemptions of Democracy Vouchers
including recipient name, Democracy Voucher
identification number and suffix, date assigned, to
whom assigned, when redeemed and amount
redeemed. SEEC shall provide other necessary means
to make the Seattle Democracy Voucher process and
Program open and transparent so that each
Democracy Voucher recipient and the media and
public may track assignments of Democracy Vouchers
to assist in exposing any potential forgery, fraud, or
misconduct regarding same. If a Democracy Voucher
recipient believes that his or her Democracy Voucher
was lost, stolen or fraudulently or improperly
assigned or redeemed, SEEC shall require a notarized
declaration or affidavit or additional process in its
judgment to find the relevant facts then provide relief
it deems appropriate including Democracy Voucher
replacement,
cancellation
of
assignment
or
reimbursement of any improperly obtained Program
funds. SEEC shall promulgate rules and regulations
for such proceedings and cases where it receives
duplicate copies of the same Democracy Voucher and
shall ensure that any Democracy Voucher recipient
may attempt to show, without any filing fee or charge,
the facts of loss, theft, destruction or forgery of or
duress in or other improper acts concerning or in the
assignment of the Democracy Voucher. Such process
shall include procedures through mails or in person
and shall include an online process when and if SEEC
develops same. SEEC shall also provide forms, and for
in-person procedures, a notary at SEEC offices during
normal business hours for this purpose, without
charge. In all cases, no Democracy Voucher

Appendix G-17
assignment shall be deemed invalid or revocable
simply because the assignor changes opinion or
changes his or her mind, gets new information from or
about any candidate or campaign, or based on any
allegation of misstatement or misinformation by any
candidate or any person, or any other source, or for
any reason other than duplicate voucher or forgery,
threats, coercion, or physical duress, shown by clear
and convincing evidence. SEEC shall issue
regulations providing remedies and consequences for
such acts, which may include, for sufficient material
violation of Program requirements, campaign laws, or
any acts of intentional forgery, threats, duress, or
coercion in obtaining assigned Democracy Vouchers,
an order requiring a candidate to return to the
Program any proceeds of Democracy Vouchers or
disqualifying a candidate from the Program.
(Initiative 122 , § 1, 2015.)
2.04.690 - Transition; SEEC Administration
Authority; Penalties; Crimes; Severability.
(a) Transition. To allow accumulation of Program
funds, in the 2017 election only and notwithstanding
other provisions of this subchapter, no Mayoral
candidate shall be eligible to participate in the
Program or receive or redeem Democracy Vouchers.
(b) SEEC to administer. SEEC shall implement and
administer the Program, Program funds, and
provisions in this subchapter including issuing and
promulgating appropriate regulations, forms, rules,
information packets, procedures, and enforcement
mechanisms. SEEC shall through rule making carry
out the provisions of this subchapter including but not
limited to making regulations, defining terms,

Appendix G-18
establishing other rules or promulgating any other
administrative regulations or guidelines not
inconsistent with the provisions of this subchapter.
Anything herein said to be done by SEEC, other than
such rule making, shall be done by its Executive
Director or another person indicated in SEEC
regulations or a duly approved printer or contractor.
Prior to each election cycle, SEEC shall inform the
public about Democracy Vouchers and the Program.
SEEC shall publish appropriate guidebooks for
candidates and Democracy Voucher recipients, and all
forms, instructions, brochures and documents
necessary and proper for this Program, which shall
include key documents accessible to those with visual
or other disability, and translations into languages
other than English spoken by a significant number of
Seattle residents, which shall be presumed initially to
include Spanish, Vietnamese, Cantonese, Mandarin,
Somali, Tagalog, Korean, Cambodian, Amharic,
Oromo, Tigrinya, Laotian, Thai, and Russian. Prior to
each election cycle, SEEC may reasonably adjust the
Campaign Spending Limits, the dollar amounts for
and numbers of qualifying contributions, the
contribution limits per contributor provided in SMC
2.04.630(b) (but SEEC shall not set a contribution
limit for qualifying candidates that exceeds the
contribution limit specified for candidates in SMC
2.04.370, or the number or value of Democracy
Vouchers provided to each eligible person, in order to
account for inflation or deflation, and ensure the goals
and purposes of the Program including democracy and
accountability, high rates of candidate participation,
heavy utilization of vouchers by those who have not
previously donated to Seattle political campaigns, and
high public satisfaction with the Program. After each

Appendix G-19
election cycle SEEC shall review the Program and
submit reports to the public and City Council.
Promptly after the effective date of this measure,
SEEC shall project Program revenue, expenditures,
and Democracy Voucher Program Funds (“Program
Funds”) balances from 2016 through at least 2021,
and shall revise and update such projections
regularly, and at all times shall manage Program
Funds as a fiduciary, ensuring proper accumulation
and distribution of funds, during nonelection and
election years, to achieve Program purposes and
goals. In making such projections and administering
this Program, SEEC shall consider all relevant
circumstances
including
differing
Campaign
Spending Limits for different offices, differing funding
needs in mayoral and non-mayoral election years, and
the need to manage the Program and funds to seek to
ensure participation by candidates. SEEC before
January 1st of each municipal election year shall
manage and prudently conserve Program Funds, by
considering
and
projecting
Program
Funds
availability and disbursements for that year and
publicizing such projections which shall include and
consider needs of participating candidates, needs for
conservation of funds for future years or reserve
accumulation, prudent operating cost and cost of
administration, and prudent conservation of public
resources. To assure candidates that ample funds will
be available for Voucher redemptions and to assure
the public that Voucher fund redemptions will be
prudently managed, by January 1st of each municipal
election year, SEEC shall publish an “Available
Program Funds Limit” for that year for Voucher
redemptions. In setting the Available Program Funds
Limit, SEEC shall use its best efforts to reasonably

Appendix G-20
project and ensure that adequate Program Funds are
available for that election year consistent with this
subchapter, its goals and purposes and all reasonably
foreseeable circumstances and contingencies and
shall set aside at least an amount needed for six
primary and two general election candidates for each
position in that year’s election to qualify and spend
their respective Campaign Spending Limit using
Democracy Vouchers only (rather than private
contributions, except for private contributions used to
qualify). During any municipal election year, as soon
as SEEC receives or reasonably believes it shall
receive Democracy Vouchers for redemption in excess
of the Available Program Funds Limit for that year,
then Program Funds shall be deemed unavailable and
SEEC shall publicly announce same and set a prompt
deadline date for Democracy Voucher delivery,
following which SEEC shall consider Democracy
Vouchers received and available Program Funds and
shall allocate remaining available Program Funds
proportionately per unredeemed verified Democracy
Vouchers on hand, pro rata among all participating
candidates for all offices without discrimination. If
any special election is called, SEEC shall set aside
Program Funds for such election in an amount it
deems appropriate, and shall be empowered to act and
change, alter, or modify or set and implement
standards, procedures, limits and deadlines as similar
as may be practicable to those provided in this
subchapter as SEEC deems proper and necessary for
such special election, taking care to not unduly
prejudice accumulation of funds for the Program.
(c) Penalties. No penalty provision in this subchapter
shall diminish any other penalty or remedy under any
other law. Participating candidates who make

Appendix G-21
expenditures in excess of the Campaign Spending
Limit shall be subject to a civil penalty of twice the
amount of the expenditure in excess of such limit,
unless SEEC determines that the overspending is
insignificant
or
trivial.
All
enforcement,
administrative and other powers, procedures, rights,
duties, remedies, process, civil penalties and other
provisions in SMC 2.04.060, 2.04.070, 2.04.075,
2.04.090, 2.04.500, 2.04.510, 2.04.520, 2.16.010 and
2.16.020, relating to violations of election campaign
contributions laws or initiative laws, shall apply in
case of violations of this subchapter, and all penalties,
remedies or consequences applicable to violations of
SMC 2.04 or 2.06 shall be applicable for any violation
of this subchapter, including but not limited to an
order requiring the party to take particular action in
order to comply with the law, and in addition, or
alternatively, sanctions up to $5,000 for each
violation.
(d) Crimes. A person is guilty of trafficking in a
Democracy Voucher if the person knowingly
purchases, buys, or pays consideration for any
Democracy Voucher or knowingly sells, conveys for
consideration or receives consideration for any
Democracy Voucher; or attempts same. A person is
guilty of theft of a Democracy Voucher if he or she
steals (defined as when one knowingly obtains or
exerts unauthorized control over with intent to
deprive the proper holder or recipient thereof) or
attempts to steal, a Democracy Voucher. A person is
guilty of the crime of forgery of a Democracy Voucher
if, with intent to injure or defraud, he or she attempts
to falsely make, complete, or alter a Democracy
Voucher or its assignment or possess, utter, offer,
dispose of, or put off as true a Democracy Voucher or

Appendix G-22
written assigned Democracy Voucher that he or she
knows is forged. For purposes of this section, “falsely
alter” means to change, without authorization by the
holder or recipient of the Voucher entitled to grant it,
a Democracy Voucher by means of erasure,
obliteration, deletion, insertion of new matter,
transposition of matter, or in any other manner; to
“falsely complete” means to make a Democracy
Voucher assignment complete by adding or inserting
matter, including but not limited to a forged
signature, without the authority of the person entitled
to assign the Voucher; to “falsely make” means to
make or draw a complete or incomplete Democracy
Voucher which purports to be authentic, but which is
not authentic either because the ostensible maker is
fictitious or because, if real, he or she did not
authorize the making or drawing or signing thereof;
and “forged” or “forgery” means a Democracy Voucher
which has been falsely made, completed, or altered. A
person is guilty of possession of a stolen Democracy
Voucher if he, she or it, being other than the recipient
of a proper assignment of a Democracy Voucher,
knowingly receives, retains, possesses, conceals or
disposes of another’s Democracy Voucher knowing
that it has been stolen and withholds or appropriates
the same to the use of any person other than the true
owner or person entitled thereto. A person is guilty of
trafficking in a stolen Democracy Voucher if the
person attempts to traffic in a stolen Democracy
Voucher, meaning to sell, transfer, distribute,
dispense, or otherwise dispose of such stolen
Democracy Voucher pertaining to another person, or
to buy, receive, possess, or obtain control of same with
intent to sell, transfer, distribute, dispense, or
otherwise dispose of the property to another person.

Appendix G-23
The crimes of trafficking in a Democracy Voucher,
theft or forgery of a Democracy Voucher, possession of
a stolen Democracy Voucher, or trafficking in a stolen
Democracy Voucher, are each a gross misdemeanor
punishable by a fine not to exceed $5,000 or, by
imprisonment for a term of up to 364 days, or both, or
as otherwise provided by State law. In this subsection
the term “person,” “he,” “she” or “actor” include any
natural person, and, in addition, a corporation, a joint
stock association, an unincorporated association or a
political committee. In cases of all crimes defined by
this subsection the Court may also require restitution
to the Program of all costs of prosecution, including
attorneys fees, as well as any amounts
misappropriated or the face value of Democracy
Vouchers misused and in case of crimes by a candidate
or political committee the Court also may require
return of all funds received from the Program in that
election cycle consistent with equity, due process and
proportional justice and or may disqualify such
political committee or candidate from participating in
the Program for that election cycle.
(e) Severability and captions. Provisions of this
subchapter and its sections are separate and
severable. The invalidity of any part or its application
to any circumstance, shall not affect the validity of
other parts or application to other circumstances.
Captions provided are not substantive. The City Clerk
may renumber or reformat this subchapter, this
ordinance or these sections, for proper codification in
the Seattle Municipal Code, without changing the
substance.
(Initiative 122 , § 1, 2015.)

Appendix H-1

Initiative 122
Passed by voters 11/3/2015, enacted 11/24/15
AN ACT relating to reducing the influence of
money, ensuring accountability, and
preventing corruption in City of Seattle
government.
BE IT ENACTED BY THE PEOPLE OF THE
CITY OF SEATTLE:
Section 1. A new Subchapter VIII titled, “Honest
Elections Seattle,” is added to the Seattle Municipal
Code, Chapter 2.04 - ELECTION CAMPAIGN
CONTRIBUTIONS, as follows:
NEW SECTION 2.04.600 – Purpose and
Authority. (a) Purpose. This people’s initiative
measure builds honest elections in the City of Seattle
(“City” or “Seattle”) and prevents corruption, by:
giving more people an opportunity to have their voices
heard in our democracy; ensuring a fair elections
process that holds our elected leaders accountable to
us by strengthening voters’ control over City
government; banning campaign contributions by City
contractors and entities using paid lobbyists; lowering
campaign contribution limits; tightening prohibitions
on lobbying by former elected officials (the “revolving
door” problem); expanding requirements for
candidates to disclose their financial holdings and
interests; and increasing fines on violators of
campaign rules. This measure also creates a
Democracy Voucher campaign public finance program
(“Democracy Voucher Program” or “Program”) to
expand the pool of candidates for city offices and to

Appendix H-2
safeguard the people’s control of the elections process
in Seattle. (b) Authority of the People. The People
have vested legislative powers of the City in a Mayor
and City Council, but reserved to themselves
independent of the Mayor and the City Council the
power to propose for themselves measures dealing
with any matter within the realm of local affairs or
municipal business. That power includes the use of an
initiative petition to submit to the qualified electors of
the city a measure as authorized by RCW 84.55.050 to
exceed the limitations of regular property taxes
contained in RCW Chapter 84.55, as it now exists or
may hereinafter be amended. The authority of the
people to adopt this measure is also specifically
authorized and reserved to the electors of the City of
Seattle by RCW 42.17A.550, which allows a city to use
locally derived public funds (whether from taxes, fees,
penalties or other sources) to publicly finance local
political campaigns, if the proposal to do so is
submitted to City of Seattle voters for their adoption
and approval, or rejection.
NEW SECTION 2.04.601 – No Campaign
Contributions from City Contractors or their
PACs.
No Mayor, City Council member or City Attorney or
any candidate for any such position shall knowingly
accept any contribution directly or indirectly from any
entity or person who in the prior two years has earned
or received more than $250,000, under a contractual
relationship with the City. No Mayor, City Council
member or City Attorney or any candidate for any
such position shall knowingly solicit a contribution for
himself or herself or for any political party, political
committee, campaign committee or public office fund,

Appendix H-3
directly or indirectly from any entity or person who in
the prior two years has earned or received more than
$250,000, under a contractual relationship with the
City. If the first sentence of this section is invalidated
then no Mayor, City Council member or City Attorney
or any candidate for any such position shall knowingly
accept any contribution of more than $250 in one
calendar year, directly or indirectly, from any entity
or person who in the prior two years has earned or
received more than $250,000, under a contractual
relationship with the City. If the second sentence of
this section is invalidated then no Mayor, City Council
member or City Attorney or any candidate for any
such position shall knowingly solicit a contribution of
more than $250, for himself or herself or for any
political party, political committee, campaign
committee or public office fund, directly or indirectly
from any entity or person who in the prior two years
has earned or received more than $250,000, under a
contractual relationship with the City. In all cases
such a candidate or office holder may solicit and
accept assignment of Democracy Vouchers without
such solicitation or assignment being considered a
violation of this section. If any part of this section is
held invalid the remainder shall be construed to effect
the anticorruption purposes of this section to the
maximum extent allowable.
NEW SECTION 2.04.602 – No Campaign
Contributions From Regulated Corporations /
Industries that Hire Lobbyists.
No Mayor, City Council member or City Attorney or
any candidate for any such position shall knowingly
accept any contribution directly or indirectly from any
entity or person who during the past 12 month period

Appendix H-4
has paid $5,000 or more to a lobbyist or lobbying
entity (as such terms are defined in SMC 2.06.010) for
lobbying the City of Seattle. No Mayor, City Council
member or City Attorney or any candidate for any
such position shall knowingly solicit a contribution,
for himself or herself or for any political party,
political committee, campaign committee or public
office fund, from any entity or person who during the
past 12 month period has paid $5,000 or more to a
lobbyist or lobbying entity (as such terms are defined
in SMC 2.06.010) for lobbying the City of Seattle. If
the first sentence of this section is invalidated, then
no Mayor, City Council member or City Attorney or
any candidate for any such position shall knowingly
accept any contribution of more than $250 in any one
calendar year, directly or indirectly from any entity or
person who during the past 12 month period has paid
$5,000 or more to a lobbyist or lobbying entity (as such
terms are defined in SMC 2.06.010) for lobbying the
City of Seattle. If the second sentence of this section is
invalidated, then no Mayor, City Council member or
City Attorney or any candidate for any such position
shall knowingly solicit a contribution of more than
$250, for himself or herself or for any political party,
political committee, campaign committee or public
office fund, from any entity or person who during the
past 12 month period has paid $5,000 or more to a
lobbyist or lobbying entity (as such terms are defined
in SMC 2.06.010) for lobbying the City of Seattle. In
all cases such a candidate or office holder may solicit
and accept assignment of Democracy Vouchers
without such solicitation or assignment being
considered a violation of this section. If any part of
this section is held invalid the remainder shall be

Appendix H-5
construed to effect the anticorruption purposes of this
section to the maximum extent allowable.
NEW SECTION 2.04.605 – Expedited Reporting
of Electronic Contributions. To ensure the Seattle
Ethics and Elections Commission (“SEEC”) creates an
electronic
reporting
system
that
increases
transparency, does not discriminate against low
budget campaigns, and takes advantage of advances
in information technology, all candidates for City of
Seattle electoral offices shall report to the Seattle City
Clerk any campaign contribution made electronically
upon deposit into a candidate’s account; provided that
this provision shall take effect only after SEEC shall
have determined that there are two or more electronic
payment processing companies that have the capacity
to report contributions to the SEEC as soon as the
contribution is transferred to the candidate’s account.
To give campaigns time to prepare for this section,
SEEC shall establish the effective date of this section
by rule published reasonably in advance of the
election cycle in which campaigns shall comply. SEEC
shall ensure that before a contribution is required to
be publicly disclosed as received by a campaign it shall
have reasonable opportunity to reject or return
undesired or illegal contributions.
NEW SECTION 2.04.606 – Signature Gatherers
Must Disclose if Paid for Signatures. Any person
or entity that is a compensated or paid signature
gatherer for any City of Seattle ballot measure,
initiative, referendum, or charter amendment shall
disclose to each person from whom a signature is
sought, in writing via a conspicuous, legible sign,
placard, or badge, stating “PAID SIGNATURE
GATHERER.”

Appendix H-6
NEW SECTION 2.04.607 - Three-year Ban on
Mayor, Councilmember, City Attorney or Top
Staff Paid Lobbying. A former Mayor, City Council
member, City Attorney, or City Department head or
the highest paid aide or employee directly reporting to
any of the foregoing, may not, during the period of
three years after leaving City office or position,
participate in paid lobbying as defined in SMC
2.06.010. If the foregoing sentence is invalidated, then
a former Mayor, City Council member, City Attorney,
or City Department head or the highest paid aide or
employee directly reporting to any of the foregoing,
may not, during the period of two years after leaving
City office or position, participate in paid lobbying as
defined in SMC 2.06.010.
NEW SECTION 2.04.620 - The Right to $100 in
Democracy Vouchers, For Assignment to
Qualified Candidates. (a) Democracy Vouchers.
Democracy Vouchers are vital to ensure the people of
Seattle have equal opportunity to participate in
political campaigns and be heard by candidates, to
strengthen democracy, fulfill other purposes of this
subchapter and prevent corruption.
(b) Issuance of Democracy Vouchers. On the first
business day in every municipal election year, SEEC
shall mail to each person who was by the previous
November 15th, duly registered to vote in the City of
Seattle, at his or her address in the voter registration
records, $100 in vouchers (“Democracy Vouchers”)
consisting of four Democracy Vouchers of $25 each,
except that SEEC may deliver Democracy Vouchers
online or in other manners if the person receiving
same elects other manner of delivery as provided in
this subchapter. Thereafter SEEC shall regularly

Appendix H-7
issue $100 in Democracy Vouchers to any person
becoming a duly registered City of Seattle voter after
the previous November 15th, up until October 1st of
the election year. To be consistent with federal law,
any adult natural person who resides more than 30
days in the City of Seattle, and who is a registered
voter, or is eligible to vote under local, state or federal
law, or who is eligible under federal law to donate to
a political campaign, but who has not received any
Democracy Vouchers in the election cycle, may opt in
to the Program and obtain an equivalent number of
Democracy Vouchers by application to SEEC. Any
eligible adult may request Democracy Vouchers be
mailed or emailed to an address other than that
indicated in the voter registration records, or be
delivered at SEEC offices, as soon as SEEC shall have
developed a secure system for such distributions of
Democracy Vouchers, including distribution online, in
person, or to an address not listed in voter registration
records. No resident outside Seattle, no corporation or
other non-human entity, no person under the age of
18 years, and no person ineligible to make political
contributions under federal law, may receive a
Democracy Voucher.
(c) Form of Democracy Vouchers. Each $25
Democracy Voucher shall state the holder’s name, a
unique voucher identification number, the election
year, and words of assignment with blank spaces for
the holder to designate a candidate and sign the
holder’s name, and may include information SEEC
deems helpful for verifying signatures such as the
voter identification number and barcode, in
substantially the following form:

Appendix H-8
$25 1 of 4 Democracy Voucher for 20xx
Election Jane Q. Public
On [insert date] _______________, 20xx, I, Jane
Q. Public, a resident of the City of Seattle,
assigned this Democracy Voucher to a
candidate for mayor, city attorney or city
council named
__________________________________________.
I attest that I obtained this Democracy Voucher
properly and make this assignment freely,
voluntarily and without duress or in exchange
for any payment of any kind for this
assignment, and not for any consideration of
any kind, and that I am aware that assignment
does not guarantee availability of funds and is
irrevocable. Assignment is complete upon
delivery to Seattle Ethics and Elections
Commission, the named candidate, or her or his
registered representative. Sale/transfer for
consideration of this Democracy Voucher is
strictly prohibited. Voucher may be redeemed
only by qualifying candidates and only if such
candidate has complied with additional
contributions and spending limits and if funds
are available.
Signed: _______________ on _______, 20xx.
Jane Q. Public voter ID and bar code Voucher
ID #123,456,789
(d) Assignment of Democracy Vouchers.
Vouchers are only transferable or assignable as stated
herein. Any person properly obtaining and holding a

Appendix H-9
Democracy Voucher may assign it by writing the
name of the assignee candidate, and signing the
holder’s name on and dating the Voucher where
indicated thereon, and delivering the signed and
dated Voucher to the candidate, or to SEEC, or to any
candidate’s representative who shall be registered for
this purpose with SEEC. Delivery may be by mail, in
person (by any person the holder requests to deliver
the voucher), or electronically via a secure SEEC
online system. SEEC shall establish a secure online
system for delivery of Democracy Vouchers (without
prejudice to any eligible person’s right to receive
Democracy Vouchers in the mail at his or her option)
no later than prior to the 2017 election cycle, unless
SEEC determines this target date is not practicable;
and in any event no later than the 2019 election cycle.
(e) Limitations on Assignment. A person may only
assign a Voucher to a candidate who has chosen to
participate in the Seattle Democracy Voucher
Program and who has filed a signed statement of
participation and pledge with SEEC as described
below. No Democracy Voucher may be assigned after
the last business day in November following the
election, or to any candidate filing for participation
who then fails to qualify or becomes unqualified for
the position sought or for the Program. A candidate or
registered candidate representative may seek
assignment in person or through representatives or by
assisting a voter to access the SEEC secure online
system. A valid assignment is irrevocable. A person
may assign any number of his or her Democracy
Vouchers to the same candidate in a given year.
Assignment or transfer for cash or any consideration
is prohibited. Offering to purchase, buy or sell a
Democracy Voucher is prohibited. No person may give

Appendix H-10
or gift a Democracy Voucher to another person, except
by assigning it to a candidate as provided herein.
Democracy Vouchers have no cash value and are not
assets, income or property of the holder. A Democracy
Voucher may not be assigned by proxy, power of
attorney or by an agent.
(f) Assignor Assumes Certain Risks. A Democracy
Voucher expires if the holder is no longer resident in
the City of Seattle, or no longer or not eligible to make
political contributions under federal law, if such
circumstances take place prior to the assignment to a
qualified candidate. The holder of a Democracy
Voucher assumes the risk that he or she may change
his or her mind after assignment, or that the
Democracy Voucher may not have use or be redeemed
due to any contingency, including but not limited to
unavailability of Program funds; the assignee
candidate reaching the “Campaign Spending Limit”
(described and defined below); a candidate’s death,
disqualification, dropping out, failure to redeem or use
the Democracy Voucher; a candidate’s not qualifying
or violating the terms of qualification; or otherwise.
NEW SECTION 2.04.630 - Candidates to Qualify
By Showing Grass Roots Support and Agreeing
to New Campaign and Contribution Limits;
Redemption of Democracy Vouchers; New
Limits on Use of Funds.
(a) Only Qualified Candidates Redeem
Democracy Vouchers. Only a candidate who has
filed with SEEC for participation in the Seattle
Democracy Voucher Program may receive assignment
of a Democracy Voucher. Only a candidate certified as
qualified by SEEC may redeem a Democracy Voucher.
Only a person eligible for and seeking the office of

Appendix H-11
Mayor, City Attorney or City Council shall be eligible
to file for Program participation.
(b) Requirements for Program. To seek
qualification, the candidate shall file with SEEC, on
or after July 1st the year before an election year and
within two weeks after filing a declaration of
candidacy, a sworn statement attesting to his or her
intent to participate, asserting that the candidate
shall timely file or has filed a declaration of candidacy
for the office indicated, and that the candidate shall
comply with Program requirements and applicable
campaign laws. Such Program requirements are that
the candidate: shall take part in at least three public
debates for primary and general elections each (as
defined by SEEC, and SEEC may waive or reduce the
number of debates, if a qualifying candidate makes all
reasonable efforts to participate in debates and
similar public events); shall comply with campaign
laws and spending and contribution limits; and, the
candidate shall not knowingly solicit money for or on
behalf of any political action committee, political
party, or any organization that will make an
independent expenditure for or against any City of
Seattle candidate within the same election cycle (for
the purposes of this section, appearing as a featured
speaker at a fundraising event for a committee or
entity shall constitute soliciting money for such
committee or entity). Further Program requirements
are that a candidate for Mayor shall not solicit or
accept total contributions from any individual or
entity in excess of a total of $500 during one election
cycle, and a candidate for City Attorney or City
Council shall not solicit or accept total contributions
from any individual or entity in excess of a total of
$250 during one election cycle (including any

Appendix H-12
contribution used to qualify for Democracy Vouchers,
but excluding the value of Democracy Vouchers
assigned to such candidate) (subject to exceptions
provided herein).
(c) Qualifying Contributions. To qualify for the
Democracy Voucher Program, candidates shall show
they have received at least the following numbers of
“Qualifying Contributions” of at least $10 but not
more than the Program contribution limit for the
office sought provided in SMC 2.04.630(b) from
individual adults (18 years of age or older), who are
human natural persons residing in the City of Seattle,
and eligible under federal law to make political
contributions: Mayoral candidates, at least 600; City
Attorney candidates, at least 150; at-large City
Council candidates, at least 400; and district City
Council candidates, at least 150 (of which at least 75
shall be from individuals residing in the district
sought to be represented by the candidate). SEEC
shall maintain a list of qualified candidates and make
it readily accessible to the public, including by
publishing it on SEEC’s website.
(d) Campaign Spending Limit. Participating
candidates shall comply with all campaign laws and
not exceed the following “Campaign Spending Limits”
(defined as (i) money spent to date (equal to prior
expenditures, plus debts and obligations), and the
value of any in kind donations reported, plus (ii) cash
on hand and (iii) the value of unredeemed Vouchers
on hand which the candidate shall have allocated to
the primary or general election): Mayor $400,000 for
the primary election, and $800,000 total (for both
primary and general election); City Attorney, $75,000
for the primary election, and $150,000 total; at-large

Appendix H-13
City Council, $150,000 for the primary election, and
$300,000 total; district City Council, $75,000 for the
primary election and $150,000 total.
(e) Further Limits on Redemption. A qualified
candidate may collect Democracy Vouchers for the
general election before the primary election takes
place and allocate same to the general election
without such Vouchers counting against the
Campaign Spending Limit for the primary election,
but may not redeem Vouchers for the general election
unless such candidate advances to the general
election.
(f) Remedies for Exceeding Campaign Spending
Limit. If a qualified candidate demonstrates to SEEC
that he or she has an opponent (whether or not
participating in the Program) whose campaign
spending has exceeded the Campaign Spending Limit
for the position sought as indicated above, where
SEEC deems the excess material it shall allow such
candidate to choose to be released from the Campaign
Spending Limit and campaign contribution limits for
the Program, in which case SEEC shall allow such
candidate to redeem his or her Democracy Vouchers
received theretofore or thereafter up to the amount of
the Campaign Spending Limit only, then allow such
candidate to engage in campaign fundraising without
regard to any Program requirements. SEEC shall also
release a qualifying candidate from the Campaign
Spending Limit to the extent that it is shown (on
application of a Seattle candidate or citizen) that said
qualified candidate faces independent expenditures
as defined in SMC 2.04.010 adverse to the candidate
or in favor of an opponent and the sum of such
independent expenditures plus said candidate’s

Appendix H-14
opponent’s campaign spending materially exceeds the
Campaign Spending Limit for that office.
(g) Loss of Qualification. A candidate loses
qualification for the Program by publicly announcing
withdrawal, abandoning the race, failing to advance
to the general election, or if SEEC finds sufficient
material violations of election laws or Program
requirements such as violation of spending or
contribution limits, or fraudulent or attempted
fraudulent assignment of Democracy Vouchers.
(h) Redemption of Vouchers. SEEC shall redeem
Democracy Vouchers only after verifying the
assignment by ensuring the Voucher was issued to an
eligible person, and verifying the signature written in
the words of assignment, and only if redemption shall
not put the candidate over the Campaign Spending
Limit and only if Program funds are available. To
verify signatures SEEC may employ the division of
King County Records and Elections which verifies
signatures for initiative petitions or mail-in ballots.
SEEC shall redeem Democracy Vouchers on
published regular redemption dates that shall be no
less frequent than twice a month and may redeem
Vouchers on other dates notified in advance if SEEC
deems it practicable. SEEC shall not redeem any
Democracy Voucher received by SEEC after the first
business day in the month of December after the
general election.
(i) Limits on Use of Voucher Proceeds.
Candidates shall use Democracy Voucher proceeds
only for campaign costs or debts for the relevant office
and election cycle, and may not use such proceeds
after a reasonable period (to be set by SEEC) following
the election to pay campaign debts. Candidates shall

Appendix H-15
not use Democracy Voucher proceeds for any cash
payments or in violation of any law; nor to pay the
candidate (except to repay or reimburse a loan to his
or her political committee or campaign in an amount
not greater than that provided in RCW 42.17A.445(3)
or WAC 390-05-400) or pay a member of the
candidate’s immediate family as defined in RCW
4.16.030; pay any entity in which the candidate or an
immediate family member holds a ten percent or
greater ownership interest; pay any amount over fair
market value for any services, goods, facilities or
things of value; pay any penalty or fine; or pay any
inaugural costs or office funds cost.
(j) Return of Democracy Voucher Proceeds. A
candidate who has redeemed a Democracy Voucher,
then withdraws, dies, becomes ineligible, loses
qualification, or is eliminated in any primary or
general election or wins a general election, shall
within a reasonable period, as defined by SEEC, pay
all debts and obligations, account to SEEC and restore
to SEEC and the Program “Unspent Democracy
Voucher Proceeds.” SEEC shall define “Unspent
Democracy Voucher Proceeds” by rule.
NEW SECTION 2.04.658 - Transparency.
Assigning a Democracy Voucher is a public act and
recipients of Democracy Vouchers shall expect same
to be public and made public and shall have no
expectation of privacy in registering to obtain
Democracy Vouchers or in assigning same. All
Democracy Voucher holders are on notice the process
is public and transparent, except that SEEC shall not
publish mail, email or other addresses to which
Democracy Vouchers are sent. SEEC shall make
transparent at its offices and on its website all

Appendix H-16
assignments and redemptions of Democracy Vouchers
including recipient name, Democracy Voucher
identification number and suffix, date assigned, to
whom assigned, when redeemed and amount
redeemed. SEEC shall provide other necessary means
to make the Seattle Democracy Voucher process and
Program open and transparent so that each
Democracy Voucher recipient and the media and
public may track assignments of Democracy Vouchers
to assist in exposing any potential forgery, fraud, or
misconduct regarding same. If a Democracy Voucher
recipient believes that his or her Democracy Voucher
was lost, stolen or fraudulently or improperly
assigned or redeemed, SEEC shall require a notarized
declaration or affidavit or additional process in its
judgment to find the relevant facts then provide relief
it deems appropriate including Democracy Voucher
replacement,
cancellation
of
assignment
or
reimbursement of any improperly obtained Program
funds. SEEC shall promulgate rules and regulations
for such proceedings and cases where it receives
duplicate copies of the same Democracy Voucher and
shall ensure that any Democracy Voucher recipient
may attempt to show, without any filing fee or charge,
the facts of loss, theft, destruction or forgery of or
duress in or other improper acts concerning or in the
assignment of the Democracy Voucher. Such process
shall include procedures through mails or in person
and shall include an online process when and if SEEC
develops same. SEEC shall also provide forms, and for
in-person procedures, a notary at SEEC offices during
normal business hours for this purpose, without
charge. In all cases, no Democracy Voucher
assignment shall be deemed invalid or revocable
simply because the assignor changes opinion or

Appendix H-17
changes his or her mind, gets new information from or
about any candidate or campaign, or based on any
allegation of misstatement or misinformation by any
candidate or any person, or any other source, or for
any reason other than duplicate voucher or forgery,
threats, coercion, or physical duress, shown by clear
and convincing evidence. SEEC shall issue
regulations providing remedies and consequences for
such acts, which may include, for sufficient material
violation of Program requirements, campaign laws, or
any acts of intentional forgery, threats, duress, or
coercion in obtaining assigned Democracy Vouchers,
an order requiring a candidate to return to the
Program any proceeds of Democracy Vouchers or
disqualifying a candidate from the Program.
NEW SECTION 2.04.690 - Transition; SEEC
Administration Authority; Penalties; Crimes;
Severability.
(a) Transition. To allow accumulation of Program
funds, in the 2017 election only and notwithstanding
other provisions of this subchapter, no Mayoral
candidate shall be eligible to participate in the
Program or receive or redeem Democracy Vouchers.
(b) SEEC to administer. SEEC shall implement and
administer the Program, Program funds, and
provisions in this subchapter including issuing and
promulgating appropriate regulations, forms, rules,
information packets, procedures, and enforcement
mechanisms. SEEC shall through rule making carry
out the provisions of this subchapter including but not
limited to making regulations, defining terms,
establishing other rules or promulgating any other
administrative regulations or guidelines not
inconsistent with the provisions of this subchapter.

Appendix H-18
Anything herein said to be done by SEEC, other than
such rule making, shall be done by its Executive
Director or another person indicated in SEEC
regulations or a duly approved printer or contractor.
Prior to each election cycle, SEEC shall inform the
public about Democracy Vouchers and the Program.
SEEC shall publish appropriate guidebooks for
candidates and Democracy Voucher recipients, and all
forms, instructions, brochures and documents
necessary and proper for this Program, which shall
include key documents accessible to those with visual
or other disability, and translations into languages
other than English spoken by a significant number of
Seattle residents, which shall be presumed initially to
include Spanish, Vietnamese, Cantonese, Mandarin,
Somali, Tagalog, Korean, Cambodian, Amharic,
Oromo, Tigrinya, Laotian, Thai, and Russian. Prior to
each election cycle, SEEC may reasonably adjust the
Campaign Spending Limits, the dollar amounts for
and numbers of qualifying contributions, the
contribution limits per contributor provided in SMC
2.04.630(b) (but SEEC shall not set a contribution
limit for qualifying candidates that exceeds the
contribution limit specified for candidates in SMC
2.04.370, or the number or value of Democracy
Vouchers provided to each eligible person, in order to
account for inflation or deflation, and ensure the goals
and purposes of the Program including democracy and
accountability, high rates of candidate participation,
heavy utilization of vouchers by those who have not
previously donated to Seattle political campaigns,,
and high public satisfaction with the Program. After
each election cycle SEEC shall review the Program
and submit reports to the public and City Council.
Promptly after the effective date of this measure,

Appendix H-19
SEEC shall project Program revenue, expenditures,
and Democracy Voucher Program Funds (“Program
Funds”) balances from 2016 through at least 2021,
and shall revise and update such projections
regularly, and at all times shall manage Program
Funds as a fiduciary, ensuring proper accumulation
and distribution of funds, during nonelection and
election years, to achieve Program purposes and
goals. In making such projections and administering
this Program, SEEC shall consider all relevant
circumstances
including
differing
Campaign
Spending Limits for different offices, differing funding
needs in mayoral and non-mayoral election years, and
the need to manage the Program and funds to seek to
ensure participation by candidates. SEEC before
January 1st of each municipal election year shall
manage and prudently conserve Program Funds, by
considering
and
projecting
Program
Funds
availability and disbursements for that year and
publicizing such projections which shall include and
consider needs of participating candidates, needs for
conservation of funds for future years or reserve
accumulation, prudent operating cost and cost of
administration, and prudent conservation of public
resources. To assure candidates that ample funds will
be available for Voucher redemptions and to assure
the public that Voucher fund redemptions will be
prudently managed, by January 1st of each municipal
election year, SEEC shall publish an “Available
Program Funds Limit” for that year for Voucher
redemptions. In setting the Available Program Funds
Limit, SEEC shall use its best efforts to reasonably
project and ensure that adequate Program Funds are
available for that election year consistent with this
subchapter, its goals and purposes and all reasonably

Appendix H-20
foreseeable circumstances and contingencies and
shall set aside at least an amount needed for six
primary and two general election candidates for each
position in that year’s election to qualify and spend
their respective Campaign Spending Limit using
Democracy Vouchers only (rather than private
contributions, except for private contributions used to
qualify). During any municipal election year, as soon
as SEEC receives or reasonably believes it shall
receive Democracy Vouchers for redemption in excess
of the Available Program Funds Limit for that year,
then Program Funds shall be deemed unavailable and
SEEC shall publicly announce same and set a prompt
deadline date for Democracy Voucher delivery,
following which SEEC shall consider Democracy
Vouchers received and available Program Funds and
shall allocate remaining available Program Funds
proportionately per unredeemed verified Democracy
Vouchers on hand, pro rata among all participating
candidates for all offices without discrimination. If
any special election is called, SEEC shall set aside
Program Funds for such election in an amount it
deems appropriate, and shall be empowered to act and
change, alter, or modify or set and implement
standards, procedures, limits and deadlines as similar
as may be practicable to those provided in this
subchapter as SEEC deems proper and necessary for
such special election, taking care to not unduly
prejudice accumulation of funds for the Program.
(c) Penalties. No penalty provision in this
subchapter shall diminish any other penalty or
remedy under any other law. Participating candidates
who make expenditures in excess of the Campaign
Spending Limit shall be subject to a civil penalty of
twice the amount of the expenditure in excess of such

Appendix H-21
limit, unless SEEC determines that the overspending
is insignificant or trivial. All enforcement,
administrative and other powers, procedures, rights,
duties, remedies, process, civil penalties and other
provisions in SMC 2.04.060, 2.04.070, 2.04.075,
2.04.090, 2.04.500, 2.04.510, 2.04.520, 2.16.010 and
2.16.020, relating to violations of election campaign
contributions laws or initiative laws, shall apply in
case of violations of this subchapter, and all penalties,
remedies or consequences applicable to violations of
SMC 2.04 or 2.06 shall be applicable for any violation
of this subchapter, including but not limited to an
order requiring the party to take particular action in
order to comply with the law, and in addition, or
alternatively, sanctions up to $5,000 for each
violation.
(d) Crimes. A person is guilty of trafficking in a
Democracy Voucher if the person knowingly
purchases, buys, or pays consideration for any
Democracy Voucher or knowingly sells, conveys for
consideration or receives consideration for any
Democracy Voucher; or attempts same. A person is
guilty of theft of a Democracy Voucher if he or she
steals (defined as when one knowingly obtains or
exerts unauthorized control over with intent to
deprive the proper holder or recipient thereof) or
attempts to steal, a Democracy Voucher. A person is
guilty of the crime of forgery of a Democracy Voucher
if, with intent to injure or defraud, he or she attempts
to falsely make, complete, or alter a Democracy
Voucher or its assignment or possess, utter, offer,
dispose of, or put off as true a Democracy Voucher or
written assigned Democracy Voucher that he or she
knows is forged. For purposes of this section, “falsely
alter” means to change, without authorization by the

Appendix H-22
holder or recipient of the Voucher entitled to grant it,
a Democracy Voucher by means of erasure,
obliteration, deletion, insertion of new matter,
transposition of matter, or in any other manner; to
“falsely complete” means to make a Democracy
Voucher assignment complete by adding or inserting
matter, including but not limited to a forged
signature, without the authority of the person entitled
to assign the Voucher; to “falsely make” means to
make or draw a complete or incomplete Democracy
Voucher which purports to be authentic, but which is
not authentic either because the ostensible maker is
fictitious or because, if real, he or she did not
authorize the making or drawing or signing thereof;
and “forged” or “forgery” means a Democracy Voucher
which has been falsely made, completed, or altered. A
person is guilty of possession of a stolen Democracy
Voucher if he, she or it, being other than the recipient
of a proper assignment of a Democracy Voucher,
knowingly receives, retains, possesses, conceals or
disposes of another’s Democracy Voucher knowing
that it has been stolen and withholds or appropriates
the same to the use of any person other than the true
owner or person entitled thereto. A person is guilty of
trafficking in a stolen Democracy Voucher if the
person attempts to traffic in a stolen Democracy
Voucher, meaning to sell, transfer, distribute,
dispense, or otherwise dispose of such stolen
Democracy Voucher pertaining to another person, or
to buy, receive, possess, or obtain control of same with
intent to sell, transfer, distribute, dispense, or
otherwise dispose of the property to another person.
The crimes of trafficking in a Democracy Voucher,
theft or forgery of a Democracy Voucher, possession of
a stolen Democracy Voucher, or trafficking in a stolen

Appendix H-23
Democracy Voucher, are each a gross misdemeanor
punishable by a fine not to exceed $5,000 or, by
imprisonment for a term of up to 364 days, or both, or
as otherwise provided by State law. In this subsection
the term “person,” “he,” “she” or “actor” include any
natural person, and, in addition, a corporation, a joint
stock association, an unincorporated association or a
political committee. In cases of all crimes defined by
this subsection the Court may also require restitution
to the Program of all costs of prosecution, including
attorneys fees, as well as any amounts
misappropriated or the face value of Democracy
Vouchers misused and in case of crimes by a candidate
or political committee the Court also may require
return of all funds received from the Program in that
election cycle consistent with equity, due process and
proportional justice and or may disqualify such
political committee or candidate from participating in
the Program for that election cycle.
(e) Severability and captions. Provisions of this
subchapter and its sections are separate and
severable. The invalidity of any part or its application
to any circumstance, shall not affect the validity of
other parts or application to other circumstances.
Captions provided are not substantive. The City Clerk
may renumber or reformat this subchapter, this
ordinance or these sections, for proper codification in
the Seattle Municipal Code, without changing the
substance.
Section 2. Funding; Lift of Levy Lids for Regular
Property Taxes – Submittal and Amount.
To allow funding of the Seattle Democracy Voucher
Program, provided in Section 1 above, the qualified
electors of the City of Seattle hereby resolve to allow

Appendix H-24
funding through a levy lift under RCW 84.55.050 and
resolve that the City’s legislative authority may fund
the Program pursuant to that authorization or
alternatively through the general fund or any other
lawful source of funds of its choosing. The taxes
authorized in this section may be levied for collection
in 2016 through 2025, raising up to $30,000,000 in
aggregate over a period of up to ten years. The City
shall not levy more than $3,000,000 (about 2.5 cents
per $1,000 of assessed value) for this purpose in the
first year, and in each subsequent year, in addition to
the maximum amount of regular property taxes it
would have been limited to by RCW 84.55.010 in the
absence of voter approval under this ordinance, plus
other authorized lid lifts. In 2016, total City regular
property taxes collected would not exceed $3.60
per$1,000 of assessed value. Proceeds from the tax
authorized in this section shall be used only to fund
the Seattle Democracy Vouchers Program as provided
in Section 1 of this measure, and any amendments
thereto adopted by future Council ordinance.
Pursuant to RCW 84.55.050(5), the maximum regular
property taxes that may be levied in 2025 for
collection in 2026 and in later years shall be computed
as if the levy lid in RCW 84.55.010 had not been lifted
under this ordinance. The tax authorized in this
section shall not be collected to the extent the City
allocates funds sufficient to establish and pay for the
Program from other sources. Program funds including
but not limited to any proceeds from the levy
authorized herein, interest or earnings thereon, any
amounts returned from candidates, and other funds
allocated for the Program, shall be used for purposes
of this ordinance and Program funds may be
temporarily deposited or invested in such manner as

Appendix H-25
may be lawful for the investment of City money, and
interest and other earnings shall be used for the same
purposes as the proceeds.
Section 3. SMC 2.06.130 - Civil Remedies and
Sanctions, is amended as follows:
Upon determining pursuant to SMC 2.04.060 through
SMC 2.04.090 that a violation of this chapter has
occurred, the Commission may issue an order
requiring the party to take particular action in order
to comply with the law, and in addition, or
alternatively, may impose sanctions up to Five
Thousand Dollars ($5,000) per violation. Any person
who fails to file a properly completed registration or
report within the time required by this chapter may
also be subject to a civil penalty of Ten Dollars ($10)
Seventy Five Dollars ($75) per day for each day each
such delinquency continues except that during the
last 30 days before any election such fine shall be at
least Two Hundred Fifty Dollars ($250) per day and
up to $1,000 per day in the discretion of SEEC, for
each day such delinquency continues.
Section 4. SMC 2.04.165 - Reports of personal
financial affairs, is amended as follows:
A. The following shall file a statement of financial
affairs:
1. Every candidate shall within two weeks of
becoming a candidate file with the City Clerk a
statement of financial affairs for the preceding twelve
months.
2. Every elected official and every candidate for a
future election shall after January 1st and before
April 15th of each year file with the City Clerk a

Appendix H-26
statement of financial affairs for the preceding
calendar year, unless a statement for that same
twelve month period has already been filed with the
City Clerk. Any elected official whose term of office
expires immediately after December 31st shall file the
statement required to be filed by this section for the
year that ended on that December 31st.
3. Every person appointed to a vacancy in an elective
office shall within two weeks of being so appointed file
with the City Clerk a statement of financial affairs for
the preceding twelve months.
4. A statement of a candidate or appointee filed during
the period from January 1st to April 15th shall cover
the period from January 1st of the preceding calendar
year to the time of candidacy or appointment if the
filing of the statement would relieve the individual of
a prior obligation to file a statement covering the
entire preceding calendar year.
5. No individual may be required to file more than
once in any calendar year.
6. Each statement of financial affairs filed under this
section shall be sworn as to its truth and accuracy.
B. The statement of financial affairs report shall
contain the following:
1. The statement of financial affairs required by this
chapter shall disclose for the reporting individual and
each member of his or her immediate family:
a. Occupation, name of employer, and business
address; and
b. Each bank or savings account or insurance policy in
which any such person or persons owned a direct
financial interest that exceeded $5,000 at any time

Appendix H-27
during the reporting period; each other item of
intangible personal property in which any such person
or persons owned a direct financial interest, the value
of which exceeded $500 during the reporting period;
the name, address, and nature of the entity; and the
nature and highest value of each such direct financial
interest during the reporting period; and
c. The name and address of each creditor to whom the
value of $500 or more was owned; the original amount
of each debt to each such creditor; the amount of each
debt owed to each creditor as of the date of filing; the
terms of repayment of each such debt; and the security
given, if any, for each such debt; provided, that debts
arising out of a "retail installment transaction" as
defined in Chapter 63.14 RCW (Retail Installment
Sales Act) need not be reported; and
d. Every public or private office, directorship, and
position held as trustee; and
e. All persons for whom any legislation, rule, rate, or
standard has been prepared, promoted, or opposed for
current or deferred compensation; provided, that for
the purposes of this subsection, "compensation" does
not include payments made to the person reporting by
the governmental entity for which such person serves
as an elected official for his or her service in office; the
description of such actual or proposed legislation,
rules, rates, or standards; and the amount of current
or deferred compensation paid or promised to be paid;
and
f. The name and address of each governmental entity,
corporation, partnership, joint venture, sole
proprietorship, association, union, or other business
or commercial entity from whom compensation has

Appendix H-28
been received in any form of a total value of $500 or
more; the value of the compensation; and the
consideration given or performed in exchange for the
compensation; and
g. The name of any corporation, partnership, joint
venture, association, union, or other entity in which is
held any office, directorship, or any general
partnership interest, or an ownership interest of ten
(10) percent or more; the name or title of that office,
directorship, or partnership; the nature of ownership
interest; and with respect to each such entity: (i) with
respect to a governmental unit in which the official
seeks or holds any office or position, if the entity has
received compensation in any form during the
preceding twelve months from the governmental unit,
the value of the compensation and the consideration
given or performed in exchange for the compensation;
(ii) the name of each governmental unit, corporation,
partnership, joint venture, sole proprietorship,
association, union, or other business or commercial
entity from which the entity has received
compensation in any form in the amount of $2,500 or
more during the preceding twelve months and the
consideration given or performed in exchange for the
compensation;
provided,
that
the
term
"compensation" for purposes of this subsection B1gii
does not include payment for water and other utility
services at rates approved by the Washington State
Utilities and Transportation Commission or the
legislative authority of the public entity providing the
service; provided, further, that with respect to any
bank or commercial lending institution in which is
held any office, directorship, partnership interest, or
ownership interest, it shall only be necessary to report
either the name, address, and occupation of every

Appendix H-29
director and officer of the bank or commercial lending
institution and the average monthly balance of each
account held during the preceding twelve months by
the bank or commercial lending institution from the
government entity for which the individual is an
official or candidate or professional staff member, or
all interest paid by a borrower on loans from and all
interest paid to a depositor by the bank or commercial
lending institution if the interest exceeds $600; and
h. A list, including legal or other sufficient
descriptions as prescribed by the Commission of all
real property in The State of Washington, the
assessed valuation of which exceeds $2,500 in which
any direct financial interest was acquired during the
preceding calendar year, and a statement of the
amount and nature of the financial interest and of the
consideration given in exchange for that interest; and
i. A list, including legal or other sufficient descriptions
as prescribed by the Commission, of all real property
in The State Of Washington, the assessed valuation of
which exceeds $2,500 in which any direct financial
interest was divested during the preceding calendar
year, and a statement of the amount and nature of the
consideration received in exchange for that interest,
and the name and address of the person furnishing
the consideration; and
j. A list, including legal or other sufficient descriptions
as prescribed by the Commission, of all real property
in The State of Washington, the assessed valuation of
which exceeds $2,500 in which a direct financial
interest was held; provided, that if a description of the
property has been included in a report previously
filed, the property may be listed, for purposes of this

Appendix H-30
provision, by reference to the previously filed report;
and
k. A list, including legal or other sufficient
descriptions as prescribed by the Commission, of all
real property in The State of Washington, the
assessed valuation of which exceeds $5,000, in which
a corporation, partnership, firm, enterprise, or other
entity had a direct financial interest, in which
corporation, partnership, firm, or enterprise a ten (10)
percent or greater ownership interest was held; and
l. A list of each occasion, specifying date, donor, and
amount, at which food and beverage in excess of $50
was accepted from a source other than the City
provided all or portion; and
m. A list of each occasion, specifying date, donor, and
amount, at a source other than the City paid for or
otherwise provided all or a portion of the travel or
seminars, educational programs or other training;
and
n. Such other information as the Commission may
deem necessary in order to properly carry out the
purposes and policies of this chapter, as the
Commission shall prescribe by rule.
2. Where an amount is required to be reported under
subsections B1a through m of this section, it shall be
sufficient to comply with the requirement to report
whether the amount is less than $1,000, at least
$1,000 but less than $5,000, at least $5,000 but less
than $10,000, at least $10,000 but less than $25,000,
or at least $25,000 but less than $100,000, at least
$100,000 but less than $200,000, at least $200,000 but
less than $1,000,000, at least $1,000,000 but less than
$5,000,000, or $5,000,000 or more. An amount of stock

Appendix H-31
shall be may be reported by number of shares instead
of by market value at the time of reporting. Each
person reporting shall also report his or her
reasonably estimated net worth. No provision of this
subsection may be interpreted to prevent any person
from filing more information or more detailed
information than required.
3. Items of value given to an official's or employee's
spouse or family member are attributable to the
official or employee, except the item is not attributable
if an independent business, family, or social
relationship exists between the donor and the spouse
or family member.
C. Concealing Identity of Source of Payment is
Prohibited—Exception. No payment shall be made to
any person required to report under this chapter and
no payment shall be accepted by any such person,
directly or indirectly, in a fictitious name,
anonymously, or by one person through an agent,
relative, or other person in such a manner as to
conceal the identity of the source of the payment or in
any other manner so as to effect concealment except
that the Commission may issue categorical and
specific exemptions to the reporting of the actual
source when there is an undisclosed principal for
recognized legitimate business purposes.
Section 5. SMC 2.04.370 - Mandatory limitations on
contributions, is amended as follows:
A. No person shall make a contribution to any
candidate for Mayor, member of the City Council, or
City Attorney of the City, except in the election cycle
for that candidate as defined in Section 2.04.010

Appendix H-32
B. No person shall contribute more than $500700 to
any candidate for Mayor, member of the City Council,
or City Attorney of the City, in any election cycle.
C. A candidate for Mayor, member of the City Council,
or City Attorney of the City, may only accept or receive
a campaign contribution during an election cycle as
defined in Section 2.04.010
D. No candidate for Mayor, member of the City council
or City Attorney of the City shall solicit or receive
campaign contributions of more than $500700 from
any person in any election cycle.
E. The limitations imposed by this section 2.04.370
shall not apply to:
1. A candidate's contributions of his or her own
resources to his or her own campaign or contributions
to the candidate's campaign by the candidate or the
candidate's spouse or state registered domestic
partner of their jointly owned assets;
2. Independent expenditures as defined by this
Chapter 2.04
3. The value of in-kind labor; and
4. Contributions consisting of the rendering of clerical
or computer services on behalf of a candidate or an
authorized political committee, to the extent that the
services are for the purpose of ensuring compliance
with City, county, or state election or public disclosure
laws.
F. The limitations imposed by this section shall apply
to contributions of the candidate’s spouse’s or state
registered domestic partner's separate property.

Appendix H-33
G. The limitations in this section shall be adjusted
commencing before the 2019 election cycle, and prior
to each election cycle thereafter, by SEEC to account
for inflation or deflation using the consumer price
index for urban wage earners and clerical workers,
CPI-W, or a successor index, for the period since the
effective date of this measure or the prior adjustment,
as calculated by the United States Department of
Labor. The declaration of the Washington State
Department of Labor and Industries each September
30 regarding the rate by which Washington State’s
minimum wage rate is to be increased effective the
following January 1, shall be the authoritative
determination of the rate or percentage of increase or
decrease to be adjusted, except that SEEC may round
the new figure up or down, to the nearest $5 or $10
increment, as it deems proper. Section 6. The
provisions of Seattle Municipal Code sections
2.04.400, 2.04.410, 2.04.420, 2.04.430, 2.04.440,
2.04.50, 2.04.460 and 2.04.470 are repealed.

Appendix I-1
SUPERIOR COURT OF WASHINGTON IN AND
FOR KING COUNTY
MARK ELSTER and
SARAH PYNCHON,

Case No.
________________

Plaintiffs,
v.
THE CITY OF SEATTLE,
a Washington Municipal
corporation,
Defendant.

COMPLAINT FOR
DECLARATORY
JUDGMENT AND
INJUNCTIVE
RELIEF

INTRODUCTION
1.
The City of Seattle compels property
owners to sponsor the partisan political speech of city
residents. A new levy on real property funds so-called
“democracy vouchers” that residents donate to
candidates running for local elected offices. Property
owners must thereby pay for political viewpoints they
object to and enrich the campaign coffers of politicians
they don’t support. Indeed, “democracy voucher” is
mere euphemism for a law that operates in effect as a
politician enrichment tax.
2.
The First Amendment embodies not only
the right to speak, but also its corollary—the right not
to speak. This includes the right to refrain from
funding the speech of another person. The Supreme
Court calls this a “bedrock principle” of the First
Amendment—“that, except perhaps in the rarest of
circumstances, no person in this country may be

Appendix I-2
compelled to subsidize speech by a third party that he
or she does not wish to support.” Harris v. Quinn, __
U.S. __, 134 S. Ct. 2618, 2644, 189 L. Ed. 2d 620
(2014). The politician enrichment tax, by forcing
Seattle property owners to finance campaign
contributions, tramples upon this bedrock principle.
PARTIES
3.
Plaintiff Mark Elster has owned and
resided with his family in a home in the Magnolia
neighborhood of Seattle since 1990. He is subject to
the politician enrichment tax. Mr. Elster grew up in
West Seattle and graduated from the University of
Washington with a Masters in Architectural Design
in 1988. He then cofounded AOME Architects in
downtown Seattle—an award-winning firm that
builds homes across the Northwest. Mr. Elster has
actively volunteered at his sons’ local schools over the
years, including serving as PTA President, designing
a school garden, and teaching magic classes to middle
schoolers.
4.
Mr. Elster is politically active, often
meeting with candidates and attending campaign
activities. He cares deeply about personal liberty and
robust free markets. Mr. Elster does not wish to
support any of the local candidates eligible to receive
democracy vouchers. He had considered using his
vouchers to support Sara Nelson for city council, but
Ms. Nelson has declined to participate in the
democracy voucher program because she objects to it
on an ethical basis. Mr. Elster no longer plans to use
the vouchers. He adamantly objects to being
compelled to subsidize views that conflict with his own
values.

Appendix I-3
5.
Plaintiff Sarah Pynchon owns property
in Seattle subject to the politician enrichment tax,
though she herself lives outside city limits. Ms.
Pynchon moved to the Seattle area after completing
her MBA at University of California-Berkeley in 1997.
She worked for T-Mobile for many years before
turning to her current career as a marketing
consultant. She also enjoys volunteering at a camp for
at-risk kids every year. Ms. Pynchon has owned and
rented out a four-bedroom, single-family home in
Seattle’s Broadview neighborhood since August 2005.
She also rents out a small studio condo in Seattle that
she purchased in 2009.
6.
Ms. Pynchon herself is not a Seattle
resident or registered to vote in Seattle. She is
therefore not qualified to receive vouchers, though she
still must pay for the vouchers of Seattle residents.
Ms. Pynchon objects to being compelled to subsidize
other people’s political speech, especially when she
herself is not entitled to vouchers.
7.
Defendant City of Seattle is a
municipality located in King County, Washington.
JURISDICTION AND VENUE
8.
Plaintiffs Mark Elster and Sarah
Pynchon bring this civil-rights lawsuit under 42
U.S.C. § 1983 for the violation of rights secured by the
First Amendment to the United States Constitution.
9.
This Court has jurisdiction over this
matter under RCW 4.28.020, RCW 7.24.010, 7.40.010,
and Article IV, Sections 1 and 6, of the Washington
State Constitution.

Appendix I-4
10.
Under RCW 4.12.020, venue is proper in
King County Superior Court because the City of
Seattle sits within county limits.
FACTUAL ALLEGATIONS
11.
In November 2015, Seattle became the
first city in the nation to single out property owners to
finance campaign contributions through so-called
“democracy” vouchers. Seattle voters passed Initiative
122 (I-122), entitled “Honest Elections Seattle,” which
established the voucher program. I-122 is codified in
Subchapter VIII of Section 2.04 of the Seattle
Municipal Code. A true and correct copy of this
initiative is attached as Exhibit A.
HOW THE POLITICIAN ENRICHMENT TAX
OPERATES
I.
The politician enrichment
municipal campaign contributions

tax

funds

12.
Washington law imposes strict limits on
municipalities’ power to increase property taxes. See
RCW 84.55.010. A taxing district, however, can
bypass the state law’s lid on the levy rate if the levy is
authorized by an initiative approved by a voter
majority. RCW 84.55.050. I-122 lifts the lid for the
purpose of imposing the politician enrichment tax.
13.
The levy lift lasts from 2016 through
2025 and authorizes the county tax assessor to collect
up to $30,000,000 in politician enrichment tax
revenue over that period, with a cap of $3,000,000 per
year. I-122 § 2. This is in addition to the regular
property taxes that the city collects through the King
County assessor’s office.

Appendix I-5
14.
The
politician
enrichment
tax
authorized by I-122 may only be used to fund vouchers
for Seattle residents to give to qualifying candidates
in Seattle municipal elections and the administrative
costs of running the program. Id.
II.

Voucher distribution

15.
On the first business day of the
municipal election year, the Seattle Ethics and
Elections Commission (SEEC) distributes four $25
campaign finance vouchers to Seattle voters.
16.
Each individual duly registered to vote
in Seattle elections by the prior November
automatically receives four vouchers in the mail.
Anyone who subsequently becomes a registered voter
in Seattle by October 1 of the election year will also
receive four vouchers by mail.
17.
Seattle residents who are not registered
to vote in Seattle can also receive four vouchers. Any
citizen or green-card holder over the age of 18 who has
lived in the city for thirty days can obtain their
vouchers upon request to the SEEC.
III.

Voucher use

18.
Voucher recipients can contribute the
vouchers, separately or in combination, to any
qualified candidate for Mayor, 1 City Council, or City
Attorney who agrees to abide by certain conditions,
listed below in paragraph 25. SMC § 2.04.620(e).

Mayoral candidates may receive vouchers starting in
the 2021 election cycle.
1

Appendix I-6
19.
Voucher recipients can only assign
vouchers to an eligible candidate participating in the
voucher program. Id.
20.
Each voucher states the voucher holder’s
name, an identification number, and the election year.
Id. § 2.04.620(c). It contains language of assignment
with blank spaces for the date and the name of the
candidate that the holder wishes to support. Id.
21.
No one can buy, sell, or give away
unassigned vouchers. Id. § 2.04.620(e). Trafficking in
vouchers constitutes a gross misdemeanor punishable
by up to a $5,000 fine and imprisonment for up to 364
days. Id. § 2.04.690(d).
22.
Each voucher contains the following
attestation:
I attest that I obtained this Democracy
Voucher properly and make this
assignment freely, voluntarily and
without duress or in exchange for any
payment of any kind for this assignment,
and not for any consideration of any kind,
and that I am aware that assignment does
not guarantee availability of funds and is
irrevocable. Assignment is complete upon
delivery to Seattle Ethics and Elections
Commission, the named candidate, or her
or
his
registered
representative.
Sale/transfer for consideration of this
Democracy Voucher is strictly prohibited.
Voucher may be redeemed only by
qualifying candidates and only if such
candidate has complied with additional

Appendix I-7
contribution and spending limits and if
funds are available.
Id. § 2.04.690(c).
23.
After listing a candidate’s name and
signing the voucher, the holder can deliver it to the
selected candidate, an authorized representative, or
the SEEC. Id. § 2.04.690(d). This can occur by mail, in
person by anyone that the voucher holder wishes, or
via SEEC’s online system. Id.
24.
If voucher recipients do not assign the
vouchers to an eligible candidate by the last business
day in November after the election, then the unused
voucher funds will carry over to the next election cycle
to fund the program. See id. § 2.06.620(e); Democracy
Voucher Program FAQ. 2 Unused voucher money does
not roll over into the general fund. Democracy
Voucher Program FAQ, supra.
25.
The
program
limits
candidates’
eligibility to receive vouchers. Candidates interested
in the program must apply to the SEEC. To qualify,
candidates—among other things—must:
•

Accede to specific campaign spending and
contribution limits not otherwise required by
law;

•

Receive a specified minimum number of
campaign contributions;

•

Participate in at least three debates in the
primary and general elections; and

http://www.seattle.gov/democracyvoucher/i-am-aseattle-resident/faqs# (What happens if I do not use
my Democracy Vouchers?)
2

Appendix I-8
•

Forebear soliciting on behalf of groups that
make independent expenditures in the same
election cycle.

Id. § 2.04.630.
26.
Candidates can only use voucher funds
for campaign-related expenses. Id. § 2.04.630(i).
27.
Misuse of voucher funds can result in a
civil penalty of up to $5,000. Id. § 2.04.500.
28.
I-122 does not require the SEEC to audit
candidates’ uses of voucher funds. Nor does it require
candidates to sign a sworn statement or otherwise
affirm that they will use the voucher funds for limited
campaign purposes.
IV.

The Vouchers’ impact

29.
The politician enrichment tax disfavors
minority viewpoints and undermines the speech
rights of property owners
30.
I-122 does not provide an equal amount
of funding to each eligible candidate.
31.
Rather, each candidate will receive
campaign funding from vouchers only to the extent
that Seattle residents choose to direct their vouchers
to support that candidate.
32.
Candidates who enjoy the most support
among residents will receive more voucher funds than
candidates with less support.
33.
This distribution differs from a neutral
public funding scheme in which candidates all receive
an equal allotment of public funds.

Appendix I-9
34.
The unequal distribution of voucher
funds based on voter preferences harms the political
interests of property owners who must pay the
politician enrichment tax yet support less popular
candidates.
35.
Landlord-tenant issues present one
example of how the law harms property owners
compelled to fund campaign contributions.
36.
Renters comprise more than 54 percent
of Seattle households. See Seattle Ordinance 125280.
37.
The political interests of Seattle’s many
renters and their landlords often clash before the city
council. Landlord groups like the Rental Housing
Association, for example, actively opposed recent
legislation such as the Seattle Renters’ Commission,
caps on move-in fees, and the first-in-time rule
limiting landlord discretion to select tenants. Prorenter groups such as the Tenants Union of
Washington State and Washington CAN supported
these measures.
38.
Seattle imposes the burden of funding
renters’ political speech—in the form of vouchers—
solely on the shoulders of landlords and other
property owners. It thus forces landlords to fund the
speech of the very interest group that they often
oppose before the city council.
39.
The current distribution of 2017 voucher
funds underscores this outcome.
40.
As of June 7, 2017, three candidates are
actively receiving vouchers, while ten more are
awaiting approval from the SEEC. Two of the

Appendix I-10
currently eligible candidates are running for city
council, and the third is running for city attorney.
41.
Four local candidates have opted not to
participate in the program. Of these, city council
candidates Sara Nelson and David Preston have
declined to participate because of ethical and
constitutional objections to the program.
42.
As of June 9, one of the three currently
eligible candidates, Jon Grant—a housing advocate
and former head of the Tenants Union of Washington
State—has received more compelled campaign
contributions than the other two candidates
combined.
43.
Of the 9,116 vouchers that voters have
thus far assigned to candidates for the 2017 election,
Mr. Grant has scooped up 5,178, totaling $129,450. 3
44.
If elected, Mr. Grant promises, among
other things, to grant renters collective bargaining
rights, a proposal that will affect the political and
economic interests of Seattle’s landlords. 4 He has
vowed to “freeze all permits, licenses, and rental
registrations where the landlord has any ownership
stake until they meet and negotiate in good faith with
the tenants.” 5

Democracy Voucher Program, Program Data,
http://www.seattle.gov/democracyvoucher/programdata.
4
Elect
Jon
Grant,
Affordable
Housing,
http://www.electjongrant.com/affordable_housing.
5 Id.
3

Appendix I-11
45.
I-122 forces landlords and other property
owners to sponsor these messages to the tune of
$129,250 to date. 6
46.
The politician enrichment tax disfavors
dissidents and compels property owners to bankroll
speech they do not wish to support.
CLAIM FOR RELIEF
The politician enrichment tax
unconstitutionally compels property owners to
fund political speech in violation of the First
Amendment
47.
The plaintiffs reallege the preceding
paragraphs as though fully set out here.
48.
The First Amendment to the United
States Constitution protects an individual’s right to
refrain from speaking or subsidizing the speech of
others.
49.
I-122 violates the First Amendment on
its face and as applied to Mr. Elster and Ms. Pynchon.
50.
A viewpoint-based or content-based
speech regulation—whether it compels silence or
compels speech—must satisfy strict scrutiny. See
Knox v. Service Employees Int’l Union, Local 1000, 567
U.S. 298, 132 S. Ct. 2277, 2289, 183 L. Ed. 2d 281
(2012). Such speech regulations must serve a
compelling interest in a narrowly tailored manner.
Harris, 134 S. Ct. at 2639.

Democracy Voucher Program, Program Data,
http://www.seattle.gov/democracyvoucher/programdata.
6

Appendix I-12
51.
The politician enrichment tax forces
Seattle property owners to subsidize campaign
contributions to local politicians. By distributing such
funds at the whim of majoritarian interests, the
program disfavors minority viewpoints. It also
disfavors the supporters of candidates who object to
and refuse to abide by the increased campaign
contribution limits required to participate because
these candidates’ supporters cannot use their
vouchers to contribute to their preferred campaign.
The program is therefore viewpoint-based and must
satisfy strict scrutiny.
52.
The law also discriminates based on
content. It compels the financial support of speech on
a particular topic—campaigns for Seattle elected
offices. For this reason, too, the democracy voucher
program must satisfy strict scrutiny.
53.
I-122 does not satisfy strict scrutiny
because funding the speech of Seattle residents at the
expense of property owners serves no compelling
interest.
54.
The law is not narrowly tailored to
achieve its purposes in a manner least restrictive of
First Amendment freedoms. The voucher program, for
example, claims to fight corruption. SMC §
2.04.620(a). Certainly, preventing contributions
might reduce corruption. But corruption is not
stymied when individuals who wish to refrain from
contributing are forced to do so.
55.
The law also purports to level the
playing field and strengthen democracy. Id. By
disfavoring minority viewpoints, however, the law
undermines rather than serves these goals. A

Appendix I-13
program that funnels money in a partisan manner
does not level the playing field, strengthen democracy,
or prevent corruption. Indeed, the program
contradicts each of these goals. It therefore fails strict
scrutiny and violates the First Amendment on its face.
56.
Additionally, the politician enrichment
tax violates the First Amendment as applied to Mr.
Elster and Ms. Pynchon.
57.
Mr. Elster does not support any of the
candidates currently eligible to receive vouchers. He
had planned to use his vouchers to support Sara
Nelson, but she has refused to participate in the
program because she objects to the policy. Therefore
any use of the voucher funds will enrich the war
chests of candidates that he opposes. I-122 thus
violates his First Amendment right to refrain from
supporting speech with which he disagrees.
58.
Ms. Pynchon, as a property owner who
lives outside the city, must subsidize private speech,
but she cannot avail herself of the voucher program to
counteract voucher contributions to candidates that
she does not want to support. I-122 therefore violates
her First Amendment right to refrain from
subsidizing speech.
59.
Plaintiffs have and will continue to
suffer irreparable harm until this law is declared
unconstitutional and void.
DECLARATORY RELIEF ALLEGATIONS
60.
An actual and substantial controversy
exists between Plaintiffs and the City as to their
respective legal rights and duties.

Appendix I-14
61.
Under 42 U.S.C. § 1983, Plaintiffs
contend that Subchapter VIII of Section 2.04 of the
Seattle Municipal Code and the associated property
levy violate the First Amendment on their face and as
applied to Mr. Elster and Ms. Pynchon.
62.
The First Amendment to the United
States Constitution does not allow local governments
to force individuals to subsidize private political
speech.
63.
I-122 violates the First Amendment by
compelling Seattle property owners to pay for other
people’s campaign contributions.
64.
A declaratory judgment will afford relief
from the uncertainty and insecurity giving rise to this
controversy.
PERMANENT INJUNCTIVE RELIEF
ALLEGATIONS
65.
Mr. Elster and Ms. Pynchon have no
adequate remedy at law to address the City’s forced
subsidization of private political speech.
66.
I-122 offers no refund mechanism or
exemption for conscientious objection. Mr. Elster and
Ms. Pynchon therefore will suffer irreparable injury
absent an injunction restraining the City from
administering this unconstitutional program.
PRAYER FOR RELIEF
Plaintiffs pray for the following relief:
1.

For a declaration that Subchapter VIII of
Section 2.04 of the Seattle Municipal Code and
the associated levy facially violate the First
Amendment to the United States Constitution;

Appendix I-15
2.

For a declaration that Subchapter VIII of
Section 2.04 of the Seattle Municipal Code and
the associated levy violate the First
Amendment to the United States Constitution
as applied to Mr. Elster and Ms. Pynchon;

3.

For a permanent injunction forbidding the City
from enforcing Subchapter VIII of Section 2.04
of the Seattle Municipal Code;

4.

For an award of reasonable attorney fees,
expenses, and costs under 42 U.S.C. § 1988;
and

5.

For such other relief as the Court deems just
and proper.
PACIFIC LEGAL FOUNDATION
BRIAN T. HODGES, WSBA No. 31976
ETHAN W. BLEVINS, WSBA No. 48219
Date:

June 28, 2017

By: s/ Ethan W. Blevins
Ethan W. Blevins
WSBA No. 48219
10940 NE 33rd Place, Suite 210
Bellevue Washington 98004
Telephone: (425) 576-0484
Facsimile: (425) 576-9565
Email: EBlevins@pacificlegal.org
Attorneys for Plaintiffs

